<html>
<title> - SHOULD WE EMBRACE THE SENATE'S GRANT OF AMNESTY TO MILLIONS OF ILLEGAL ALIENS AND REPEAT THE MISTAKES OF THE IMMIGRATION REFORM AND CONTROL ACT OF 1986?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
SHOULD WE EMBRACE THE SENATE'S GRANT OF AMNESTY TO MILLIONS OF ILLEGAL 
 ALIENS AND REPEAT THE MISTAKES OF THE IMMIGRATION REFORM AND CONTROL 
                              ACT OF 1986?

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2006

                               __________

                           Serial No. 109-127

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-781                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 18, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     3
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Member, Subcommittee on Immigration, Border 
  Security, and Claims...........................................     5
The Honorable Howard Berman, a Representative in Congress from 
  the State of California, and Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     6
The Honorable Jeff Flake, a Representative in Congress from the 
  State of Arizona, and Member, Subcommittee on Immigration, 
  Border Security, and Claims....................................     8
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Subcommittee on Immigration, 
  Border Security, and Claims....................................     9
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Member, Subcommittee on Immigration, 
  Border Security, and Claims....................................    10
The Honorable Linda Sanchez, a Representative in Congress from 
  the State of California, and Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    11
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Immigration, Border 
  Security, and Claims...........................................    12
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Member, Subcommittee on Immigration, 
  Border Security, and Claims....................................    14
The Honorable Maxine Waters, a Representative in Congress from 
  the State of California, and Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    16

                               WITNESSES

The Honorable Silvestre Reyes, a Representative in Congress from 
  the State of Texas
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21
Mrs. Phyllis Schlafly, President, Eagle Forum
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Mr. Steven Camarota, Director of Research, Center for Immigration 
  Studies
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Mr. James R. Edwards, Jr., Adjunct Fellow, Hudson Institute
  Oral Testimony.................................................    38
  Prepared Statement.............................................    39

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    68
Prepared Statement of the Honorable Edward M. Kennedy, Senior 
  United States Senator from the Commonwealth of Massachusetts...    73
Article entitled ``Senate Bill Creates Terrorist Loophole'' by 
  Kris W. Kobach, submitted by Phyllis Schlafly, President, Eagle 
  Forum..........................................................    80
Article entitled ``Study: Immigrants Pay Tax Share''by Karin 
  Brulliard, submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    84
Letter from the Essential Worker Immigration Coalition et al., 
  submitted by the Honorable Sheila Jackson Lee, a Representative 
  in Congress from the State of Texas, and Ranking Member, 
  Subcommittee on Immigration, Border Security, and Claims.......    88


SHOULD WE EMBRACE THE SENATE'S GRANT OF AMNESTY TO MILLIONS OF ILLEGAL 
 ALIENS AND REPEAT THE MISTAKES OF THE IMMIGRATION REFORM AND CONTROL 
                              ACT OF 1986?

                              ----------                              


                         TUESDAY, JULY 18, 2006

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Hostettler (Chairman of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order. Good 
morning.
    Today, there are approximately 11 million illegal aliens in 
the United States, making illegal immigration one of the most 
serious issues facing our nation. In May, the Senate passed 
legislation that would provide amnesty for most of the illegal 
aliens currently in the U.S. in a way that is eerily similar to 
the amnesty Congress granted in 1986.
    At this hearing, we have the opportunity to examine how the 
United States dealt with illegal immigration 20 years ago, why 
that approach did not work, and the direction we should take in 
light of our past failure. In 1986, there were approximately 3 
million illegal aliens in the U.S. Congress responded by 
passing the Immigration Reform and Control Act, or IRCA.
    There are several key features to IRCA. First, it provided 
amnesty to 2.7 million illegal aliens in several different 
categories. Aliens who had been illegally present since 1982 
were granted a general amnesty, while agricultural workers who 
arrived more recently were granted amnesty under the special 
agriculture worker program.
    The amnesty was accompanied by a plan designed to stop 
employment of illegal aliens in the U.S. IRCA created an 
employer-sanctions scheme for employers who knowingly hired 
illegal aliens and required employers to check the identity and 
work eligibility documents of all employees to ensure lawful 
immigration status. At the time, policymakers truly believed 
that it would be a one-time amnesty and the problem of illegal 
immigration would be solved.
    Congress rejected recommendations made by the Select 
Commission on Immigration and Refugee Policy in 1981, which 
stated in part, ``The Commission believes that a legalization 
program is a necessary part of enforcement, but it does not 
believe that the U.S. should begin the process of legalization 
until new enforcement measures have been instituted to make it 
clear that the U.S. is determined to curtail new flows of 
undocumented illegal aliens. Without more effective enforcement 
than the U.S. has had in the past, legalization could serve as 
a stimulus to further illegal entry. The select commission is 
opposed to any program that could precipitate such movement.''
    Then-Senator Alan Simpson, coauthor of IRCA, affirmed his 
commitment to amnesty in exchange by stating, ``I firmly 
believe that a one-time-only legalization program is not only 
good public policy, it is good sense, and it is fully in the 
best interest of this country.''
    Time showed us that IRCA has utterly and completely failed, 
mainly due to the fact that Congress did not heed the warning 
of the select commission regarding the need for real 
enforcement prior to any discussion of such legislation. 
Illegal immigration has not been controlled, but has increased 
significantly in the past 2 decades. Employer sanctions have 
been enforced in a farcical manner. Furthermore, the I-9 system 
has proven to be a failure because an illegal alien can cheaply 
and easily obtain counterfeit documents to show his or her 
employer.
    Employers in a catch-22 situation cannot require additional 
proof that the documents presented are legitimate for fear of 
running afoul of discrimination laws. In May, the Senate passed 
the Reid-Kennedy amnesty, which is remarkably similar to the 
1986 amnesty. The Reid-Kennedy bill also provides several 
categories of amnesty, including a general amnesty for anyone 
who can show that he has been in the country for more than 5 
years, including an agriculture amnesty.
    Again, proponents of the current proposals believe that 
this amnesty will solve the problem once and for all, but 
Congress and the Administration have no credibility with the 
American people. Why should Americans have any reason to 
believe that the supposed enhanced enforcement provisions in 
Reid-Kennedy will be effectively enforced by the 
Administration, any more than successive Administrations have 
enforced IRCA?
    The Administration will probably implement amnesty for 
millions of illegal aliens quite quickly. Enforcement will 
likely lag behind, if it occurs at all. We will find ourselves 
in exactly the same place we found ourselves 20 years ago. 
Amnesty sends out a message that the United States is not 
serious about enforcing our laws. It is an affront to the 
millions of immigrants legally who wait their turn and use the 
legal immigration system.
    When the United States grants amnesty and forgives 
lawbreaking, it encourages more illegal immigration in the 
future. The grant of amnesty in 1986 did nothing to resolve the 
illegal immigration problem. It made the problem worse as 
increased numbers of illegal aliens pour across the border 
waiting for their turn.
    Well, Reid-Kennedy is their turn and a new wave of illegal 
aliens will come to wait for theirs. I believe that Benjamin 
Franklin once said that, ``The definition of insanity is doing 
the same thing over and over again expecting different 
results.'' We cannot expect to solve the problem of illegal 
aliens by encouraging lawbreaking through amnesty. It didn't 
work in 1986 and it will certainly not work in 2006.
    At this time, I would like to recognize the gentlelady from 
Texas, Ms. Jackson Lee, for purposes of an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    As always, we thank the witnesses for their presence here. 
I thank my colleagues, Members of this Subcommittee.
    Mr. Chairman, I always wonder about the timing in this 
House, and there is a concept called regular order. That 
concept ensures that thorough hearings are given to a topic 
prior to legislative initiatives being put forward. I think 
both the House and Senate attempted to do their job, and 
interestingly enough there is an immigration initiative 
legislation passed out of the House and there is one passed out 
of the Senate. In fact, it has been known, the Senate bill, as 
the Bush-McCain bill. Working of course collaboratively with 
Senator Kennedy and Senator Reid, it is the concept that the 
president has adopted.
    It is interesting to note, as the Chairman speaks 
eloquently about legislative history that includes the 1986 
bill, I remind him again that President Ronald Reagan worked 
obviously very hard as a Republican to fix what was perceived 
as a broken system.
    I might add that they put their best effort forward, but of 
course subsequent to Ronald Reagan's tenure was President Bush. 
And so Republicans had a chance to enforce both legal 
immigration and procedures that would assist in making sure 
that we had the proper enforcement.
    I think what Americans are asking for now is not a recap, 
not a recounting, but they are really asking for us to fix the 
broken immigration system, the broken benefits system, the 
broken legal immigration system where members of our community 
are crying out to allow them to process themselves to a legal 
system that works, fingerprints that are not lost, paperwork 
that is not lost. And yes, Mr. Chairman, they are looking 
forward to a system that includes comprehensive immigration 
reform.
    Might I, for a moment, Mr. Chairman, just say that I thank 
you for discussions that I hope that we will have if we 
continue to have these hearings that would ensure that there is 
a balance between Democrats and Republicans with witnesses. 
That is fairness. That means that we truly are achieving our 
goals of getting the facts.
    What I would most hope is that expeditiously we achieve the 
opportunity of a conference committee to work on the existing 
bills, unless, Mr. Chairman, you tell me that we are about to 
reopen the legislative process. I know that many of the 
witnesses here, Congressman Reyes, might like to open the 
legislative process.
    He had a number of issues and amendments that I joined him 
on, particularly providing support for our very worthy border 
patrol agents that we did not and were not able to include in 
the bill. It would be great if we were told by the leadership 
that that would occur, but as we speak that is not the case.
    So let me just simply say that the question of this hearing 
uses the word ``amnesty,'' which has been infused with negative 
connotations by the opponents of the Senate's bill, the 
Comprehensive Immigration Reform Act of 2006, S. 2611. The 
Senate bill in fact would not grant amnesty.
    Amnesty is defined by the American Heritage dictionary as a 
``general pardon granted by a government especially for 
political offenses.'' It was derived from the Latin word 
``amnesti,'' which means ``amnesia.'' We have no amnesia in the 
Senate bill.
    The Senate bill does not have any provisions that would 
forget or overlook immigration law violations. If I could, I 
would clap in this room today because I would say, as some of 
the kids say, ``yay'' or maybe even ``awesome,'' because we 
understand the responsibility that we have pursuant to the 
American peoples' dictates.
    The Senate bill clearly asks those to get in line, to be 
able to be documented, whether or not they can meet the 
criteria of having a number of indicia to make sure that they 
can meet the standards of status or citizenship, keep their 
records clean, employed for 6 years, to establish eligibility 
for permanent resident status and pay a substantial fine.
    Those dollars, $24 billion, can be used to invest in 
America. The essence of the question, however, is found in the 
phrase ``repeat the mistakes.'' This refers primarily to a 
grant of amnesty. The opponents of S. 2611 appear to believe 
that anything but an enforcement-only approach is a mistake.
    They have failed repeatedly, however, to implement 
enforcement measures. I have already chronicled for you that 
when this bill was passed we had two Republican presidents back 
to back. It is well noted that during the Clinton 
administration, our enforcement capability went up, but we have 
to understand compassion and reason.
    I hope that over the next couple of weeks, we will be able 
to have on the floor of the House, Mr. Berman and Ms. Lofgren, 
stories of immigrants who have helped build this nation. I 
think we have failed to acknowledge the stories of the origins 
of this nation.
    Maybe, Mr. Chairman, you will accept my invitation to have 
a hearing to be able to, if we are going to continue with these 
mock hearings, to have a hearing that will tell the viable 
stories of immigrants who have contributed to America. I know 
that you can count that as a viable part of this question.
    S. 2611 has a three-pronged strategy to fix our broken 
immigration system that would avoid the mistakes of IRCA. It 
would establish a fair legalization program, but it would have 
a comprehensive border security program that includes the 
northern and southern border. It is the Bush-McCain effort. It 
is the Kennedy-Reid effort. It is a collaborative effort. It is 
what America wants. It would provide additional visas for 
future immigrants, which would address the primary cause of 
illegal immigration.
    Let me conclude, Mr. Chairman, by simply saying that we all 
are intent on doing our duty. You have called these hearings 
and I am present and accounted for as my colleagues are. But I 
would offer to say that we have a lot of work. Though this is 
not particularly the call of this particular hearing, I would 
just simply say I beg the president of the United States to 
rescue the 25,000 Americans that are in Lebanon that are now 
stranded and are asking for relief, and days and days have 
passed and we can't seem to get them out of Lebanon. That is 
the work that we should be doing. But if we are doing this 
work, let us do it fairly.
    With that, I would like to submit into the record, I ask 
unanimous consent, Mr. Chairman, a statement of Senator Edward 
M. Kennedy, who was here in 1986 and has been working without 
stopping in a collaborative way to bring America comprehensive 
immigration reform. I ask unanimous consent.
    Mr. Hostettler. Without objection, we welcome the addition 
of Senator Kennedy to the record.
    [The prepared statement of Senator Kennedy follows in the 
Appendix]
    Ms. Jackson Lee. Thank you. I ask unanimous consent for a 
letter from a number of issue groups on immigration. I ask 
unanimous consent to submit their letter into the record.
    Mr. Hostettler. Without objection.
    [The letter follows in the Appendix]
    Ms. Jackson Lee. I thank the Chairman. I look forward to a 
productive time of bringing forth to America what they have 
asked us for.
    I yield back.
    [The prepared statement of Ms. Jackson Lee follows in the 
Appendix]
    Mr. Hostettler. I thank the gentlelady.
    The chair now recognizes the gentleman from Iowa for 
purposes of an opening statement.
    Mr. King. Thank you, Mr. Chairman. I very much appreciate 
this hearing, and I associate myself with your opening remarks.
    But it doesn't matter to me, in response to the Ranking 
Member's remarks, whether we call the bill Reid-Kennedy, Bush-
McCain or Martinez-Hagel, it is a bad bill. America knows it is 
a bad bill. They are going to find out a lot more about what is 
in this bill as these hearings unfold across America. It is 
important that we help educate America on those pieces that 
were in there.
    I can't find a single senator that will stand up and say, 
``I understood everything that I was voting for or against;'' 
the pages were too many; the components were too detailed and 
too vague. It is unfolding yet today what is in that bill. We 
need to shine the light on that for the American people.
    My central point is this, that we passed amnesty in 1986 
and no one argued whether there was amnesty or not in 1986 
because President Reagan declared it to be amnesty in 1986 and 
then this is the same policy. Whether you define it as 
something else, it is pretty difficult to change the definition 
that the American people understand to be amnesty.
    Whether it is a general pardon granted by the government 
generally for political purposes, this is for political 
purposes, the proposed amnesty, and it is a general pardon, and 
if you reduce or eliminate the penalties that are in existing 
law and grant a whole class of people a general pardon, that is 
an amnesty even by the gentlelady from Texas's written 
definition that she presented here.
    So I would point out also that we were told in 1986 that 
the Administration would enforce the law. I accepted I-9 
documents from prospective employees and those that I hired. I 
put them on file. I checked their identification. I lived with 
concern that the Federal Government would come into my office 
and check my records and see if I was complying. They never 
showed up, and they didn't show up in millions of businesses 
across America because enforcement diminished from 1986 until 
2006.
    I will agree with the statement that the gentlelady from 
Texas made that there was more enforcement under the previous 
Administration than there is under this one. In fact, if you 
are an employer and you are concerned about sanctions for 
knowingly and willfully hiring illegals, you were 19 times more 
likely to be sanctioned by the previous Administration in the 
first 5 years than you were in the first 5 years of this 
Administration. That is just simply a fact.
    And so we have bought that bridge before. I propose we not 
buy that bridge again.
    I would yield to the Chairman for any time that he might 
want to consume.
    Mr. Hostettler. I thank the gentleman for yielding.
    In response to my colleague, the gentlelady from Texas, a 
discussion about the timing of these hearings, I would just 
like the record to reflect that in a discussion about the 
timing of such legislation that should be considered by the 
House of Representatives, I was asked for my opinion. It was my 
suggestion to leadership for the House to consider legislation 
after the Senate had passed a bill.
    When asked why I would suggest such a thing, it was very 
clear to me the path that the Senate was going to take, and 
that I believed that Members of the House of Representatives 
would be much more focused on their attention to what type of 
legislation should not be passed out of the House of 
Representatives after the Senate considered their bill.
    It is now the feeling of many Members of the House of 
Representatives that we should reconsider the issue of illegal 
immigration and immigration reform. That is why we are holding 
these hearings, especially as it relates to a significant 
portion of the Senate bill which was not included in the House 
bill, and that is the granting of amnesty to millions of 
illegal aliens.
    Ms. Jackson Lee. Mr. Chairman, would you yield, just for an 
inquiry?
    Mr. Hostettler. The gentleman's time is the gentleman from 
Iowa. I yield back to the gentleman from Iowa.
    Mr. King. And I would yield back to the Chairman.
    Mr. Hostettler. The chair now recognizes the gentleman from 
California for purposes of an opening statement.
    Mr. Berman. Thank you, Mr. Chairman.
    I don't buy the notion that this is a serious effort to 
come to grips with the fundamental issues in the Senate bill. I 
am convinced by virtue of what has happened here, both in 
treating the House-passed bill, what it went through, and in 
the way people are titling and talking about the hearings in 
the Senate on the Senate bill, that this is simply a well-
orchestrated effort to have this Congress recess before the 
election without having dealt with one of the country's most 
serious national crises.
    Anyone who has taken a civics course knows that hearings 
are held before bills are passed, and they are used to gather 
information that might assist in drafting the bill. When the 
two Houses of Congress have passed a bill, the bill goes to 
conference, not to hearings, to see if we can work out the 
differences and move forward. We are moving backwards in this 
process.
    Remember, Mr. Chairman, last December the House passed an 
enforcement-only immigration bill. That is the one that made 
felons of 11 million people in this country. That bill was 
introduced on a Tuesday and without a single hearing in the 
Judiciary Committee, no chance to put light on those 
provisions, it was marked up, moved to the floor, and passed 
the following Friday.
    No hearings, no input from the minority party in drafting 
the bill, no real deliberative process, with the Rules 
Committee shutting out every amendment that dealt with any of 
the obviously related immigration issues raised by the bill 
that was then before us. And, of course, we passed a bill that 
as generally acknowledged provides no solution to America's 
need for meaningful immigration reform.
    That is why we are here today. No one should confuse these 
hearings with an attempt to correct the lack of deliberation of 
the House the first time around. These hearings are a con-job 
on the American people. The Republican majority in the House is 
trying to convince the American public that they want very 
badly to enact immigration reform and they just need to study 
it a little bit more in these hearings before they can get the 
job done. Even though Republicans hold the White House and a 
majority in both the House of Representatives and the Senate, 
they can't sit down and put together a real immigration reform 
package that will produce meaningful long-term results.
    This process is becoming a total failure. These hearings 
are about one thing: running out the clock. We are going to 
talk about this for 5 or 6 weeks, not convene a conference 
committee, not do anything in the context of working out 
differences, and then the Congress will end up going home 
without having passed immigration reform.
    And then to top it all off, I get communications and 
messages that come out from the House Republican leadership 
about this legislation, and from some of the witnesses that 
have been called today, making it sound like something 
reminiscent of the communist party days when all propaganda, 
when all messages were sent to convey propaganda.
    A bill in the Senate, introduced by John McCain and Ted 
Kennedy, goes to the Senate Judiciary Committee chaired by 
Arlen Specter, and through a process of changes and compromises 
Senator Specter passes out the bill. And then Senators Hagel 
and Martinez, two distinguished Republicans, put together a 
compromise, and then that piece of legislation passes the 
Senate with 20 Republican votes in favor of that piece of 
legislation.
    The Chairman, the Republican leadership of the House, the 
witnesses, decided to name it the Reid-Kennedy bill, see how 
many times they can use the word ``amnesty'' in one sentence, 
and then try to create an image of a bill that doesn't exist. 
We know why the 1986 bill failed. It failed because the 
business community went to the Congress and said, ``Whatever 
you do, don't put the onus of determining validity of documents 
on our back.''
    And the executive branch went along with that and the 
Congress went along with that. The fact is, the 1986 bill had a 
very fundamental flaw. The employer sanctions were worthless. 
One part of a comprehensive approach that will actually I think 
go a long way to solve that problem is to have a meaningful 
mandatory employer verification system in place so that both 
new employees and existing employees can be determined whether 
or not they have work status.
    Without some process that deals with the legalization of 
the millions and millions of people in this country now 
working, and working under false identifiers, working in many 
cases in outrageously inhumane conditions, unless some process 
exists for them to come forward, that kind of a system will 
never work. All parts of this have to be done. The prescription 
is so clear. Instead, we get the propaganda releases from the 
Republican leadership here, which convince me they don't want 
to move legislation this year.
    Mr. Hostettler. The chair now recognizes the gentleman from 
Arizona for purposes of an opening statement.
    Mr. Flake. I thank the Chair.
    I rarely make opening statements in a hearing because I 
would rather hear those who are here to testify. I feel it is 
necessary for at least one Republican to say that the way the 
1986 bill is being described is not very accurate, frankly, in 
relationship to what we are trying to do today. The failure in 
1986 was because it wasn't comprehensive. That is a failure 
that we cannot afford to replicate.
    In 1986, we gave an amnesty to those who were here 
illegally. We said, if you have been here 5 years, you have a 
shortcut to a green card. That is about all we did. We didn't 
secure the borders. We didn't have an employment verification 
system. Most importantly, we did not allow a legal framework 
for additional workers to come. So it was a farce. In the end, 
it was out of date before it was signed into law. We can't 
afford to do that today.
    I would submit that if we only do one portion, and all we 
are talking about is the House bill, is more border security. 
That is one element, and a very important element, but it is 
only one. And we will do the same thing that we did in 1986 if 
we fail to do it comprehensively.
    Yes, we need more border security. Yes, we need interior 
enforcement. But we also need to deal with those who are here 
illegally and we need to ensure that we have a legal framework 
for additional workers to come and return home. If we fail to 
do that, we will repeat the mistakes of 1986.
    So I resent the implication that in 1986 we tried 
comprehensive reform and it failed. It failed because it wasn't 
comprehensive reform. I think one Republican at least needs to 
stand and say that.
    With regard to what is going on now, I associate my 
comments with those of Congressman Berman, who is saying that 
the proper order here is to have hearings, then have a markup, 
have a bill, and then have a conference committee. That is what 
we ought to be doing. The Senate bill, I like parts of it; I 
don't like parts of it. I voted for the House bill because it 
included many elements that we need.
    So we ought to meld the two and get to the work of actually 
producing a compromise bill that contains all the elements that 
we need. It won't be everything I want. It won't be everything 
anybody wants, but at least we will move forward with a 
comprehensive approach. That is what we ought to be doing.
    Instead, we are holding what we are calling field hearings 
across the country. They ought to be called faux hearings 
because they simply are in the wrong order. We aren't really 
looking to gather information so much as trying to beat up on 
the Senate bill. I am sorry for saying it like that, but I 
don't know how else to say it.
    So I look forward to the testimony today, but just let me 
make it clear that I don't believe that the reason we are 
beating up on the 1986--I thought it was bad. We shouldn't have 
done it that way, but we can't repeat it, and that is what we 
are at risk of doing if we continue down this road.
    So I thank the Chairman for convening this hearing, and I 
hope it is productive.
    I yield back.
    Mr. Hostettler. I thank the gentleman.
    The chair now recognizes the gentlelady from California for 
purposes of an opening statement. Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    I appreciate my colleague, Mr. Flake's, honest commentary 
on this process. I attended a faux hearing in San Diego. It is 
pretty apparent, I think, to any honest observer what is going 
on here is a highly politicized process. It really has almost 
nothing to do with the serious work of dealing with immigration 
issues.
    I think, and I certainly don't include Mr. Flake, because 
he has spoken openly about this, but I think it is pretty clear 
that the Republican leadership thinks that if they talk a lot 
about this that they can somehow convince the country that they 
are doing something. But I actually think that is a misplaced 
strategy because I think the country knows that the Republican 
Party is in charge of everything. They have the White House. 
They have the Senate. They have the House. And they have not 
produced.
    In fact, H.R. 4437 isn't really a solution either. If you 
take a look at what we haven't done, and I think the public 
will be aware of this, we have not actually hired, we have not 
produced the funding to hire the border agents that we said we 
would do. The president's 2006 budget calls for only an 
additional 210 border patrol agents.
    The 9/11 Act which mandated an additional 800 immigration 
enforcement agents over the next 5 years has not been met. We 
have only funded 350 of that mandatory amount. The 9/11 Act 
also mandated an additional 8,000 detention beds, but for 
fiscal year 2006, we only funded 1,800.
    So enforcement, and we have talked about enforcement, from 
1999 to 2003, worksite enforcement operations were scaled by 95 
percent. The number of employers prosecuted for unlawfully 
employing immigrants dropped from 182 in 1999 when Clinton was 
president, to four in 2003. The fines collected declined from 
$3.6 million to a little over $200,000. In 1999 when Clinton 
was president, the United States initiated fines against 417 
companies. Do you know what it was in 2004? Three companies.
    So on the watch of the Republicans, there has been failure. 
I don't think the solution in the bill to make 11 million 
people felons is a serious one either. When you think about 
what it costs, it costs about $50,000 a year to incarcerate a 
person in Federal prison. When you add the costs of 
prosecution, defense, courtroom costs and the like, we are 
talking about one-third of a trillion dollars to actually take 
that felony provision seriously in the bill.
    So I don't believe that a Congress that refused to hire 
border patrol agents is actually going to appropriate one-third 
of a trillion dollars to implement the felony provisions of 
that act, and if they don't mean to implement it, what are they 
doing other than just talking once again?
    I would also like to point out, and it's not that 
comfortable to criticize one's colleagues personally, but we 
have had efforts over and over again, the Democrats have, to 
increase funding for the border. The Republicans, including all 
the Republicans here, have voted against those amendments over 
and over again.
    So I believe that we are talking a lot once again. We are 
going to talk all over the country once again, but I think it 
is all talk and no action. Talk is cheap, but I think that the 
American public is going to see through this sham and I think 
it is a real disservice to the country, frankly, that we are 
engaging in this kind of behavior.
    I yield back.
    Mr. Hostettler. The chair recognizes the gentleman from 
Texas, Mr. Gohmert, for purposes of an opening statement.
    Mr. Gohmert. Thank you, Mr. Chairman.
    I, for one, am glad you are having the hearings and I 
appreciate the opportunity. I would apologize to the witnesses 
here that have gone to a great deal of trouble to come here and 
to testify, as a colleague has referred to these as ``mock'' 
hearings. I doubt that your testimony is going to be mock. You 
will take an oath and we would expect you to testify not mock, 
but from your own personal experience and knowledge, truthfully 
to the best of your abilities, so help you God.
    Now, and also I had heard that we would like to have a 
hearing in which we can hear real stories about real 
immigrants. I will give you one. My great-grandfather came over 
around the 1870's. He got here with less than $20 and didn't 
speak a word of English. But he did two things: He worked his 
tail off and he learned English. As a result, by 1895, he built 
the house that has a national and State of Texas historical 
marker on it because he did so well. That is America.
    You can come. You can do it legally. You can work your tail 
off. You learn English, and you can do amazing things, and one 
day maybe even your great-grandson that is a bald-headed goose-
looking guy, could end up in Congress. You just never know what 
could happen.
    We need immigration. We need border security. This is a 
tough time. It does not do us any good to turn a blind eye to 
the borders and to our avenues of entry. So again, I appreciate 
having the hearings because we have an impasse right now 
between the Senate and the House. I am constantly asked back 
home why is there such a wide discrepancy between the House 
version and the Senate version? I tell them it's easy: We have 
2-year terms and they have 6-year terms. We have to listen to 
the people and find out what the problems are. They have a lot 
of time not to have to do that, and get serious when it gets 
toward their elections.
    So that is why the House is more responsive. That was the 
design of the Constitution. So I think these hearings, once you 
reach an impasse between the House and the Senate, the hearings 
become important to back up and gather enough evidence to help 
persuade either the House or the Senate that one is off track. 
I don't mind a bit saying it is the McCain-Kennedy bill. It is 
the McCain-Kennedy bill. I am not embarrassed to say that 
because I don't like it and I don't care what the name is.
    As far as the cry that we need to be not having this 
hearing, but rescuing those in Lebanon, I would say we need to 
be rescuing people in the Middle East. We need to be sending 
those who would attempt to disrupt the Middle East, like 
Hezbollah, we need to send them back to the Stone Age.
    But unfortunately, this country has so many problems, is so 
diverse, we cannot just focus on one little area like the 
Middle East when we have problems on our own borders. So I 
think it is incumbent for those of us who can multi-task to 
help those who can't. If some people can only do one thing and 
look at one area, God bless them, and help us in that area, for 
those of us that can multi-task, let's look at the Middle East, 
let's look at the borders, and let's try to make sure we are 
secure all around.
    As far as the comment of a colleague that this is a well-
orchestrated effort to do nothing, I would say it is an 
orchestrated effort to try to get enough information. You give 
me facts that change my mind, then I will go to the leadership 
and I will push to have our conferees change their positions. I 
am looking forward to hearing the testimony today with regard 
to that.
    As far as additional funding, this House, guided by and 
pushed by this Committee, has forced additional funding far 
beyond what the president has asked for. We have asked for it. 
We pushed for it. We have gotten it. We got $275 million last 
year that the president didn't even ask for for more border 
security. So I am glad to hear my colleagues on the other side 
of the aisle, they are on-board now. They want to push for more 
funding.
    I do regret that we weren't able to get more funding to 
help with our ports. All our avenues of entry need to be 
protected. We need reform of the immigration service, whether 
you call it INS, ICE, whatever you want to call it. It has 
still got problems, and I will look forward to working on 
those, and I appreciate the Committee Chairman's opportunity to 
have this hearing.
    Mr. Hostettler. I thank the gentleman.
    The chair recognizes the gentlelady from California, Ms. 
Sanchez, for purposes of an opening statement.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I wholeheartedly agree, like most Americans do, that our 
immigration system is broken and it badly needs a comprehensive 
overhaul. Americans also agree, like I do, that we need 
concrete and effective immigration policies to secure our 
nation's borders.
    Meanwhile, I can't help but say that I am totally 
disheartened about the election-year posturing that is going on 
here. The title of this hearing is pretty comical, if it 
wouldn't be pretty sad. It has already attracted a lot of 
attention in the press: ``Should we embrace the Senate's grant 
of amnesty to millions of illegal aliens and repeat the 
mistakes of the Immigration and Reform Control Act of 1986?''
    Well, that is a conclusion in search of a justification, if 
I have ever heard one. We all know that these hearings are more 
about posturing, than a real honest reckoning with problems and 
solutions. I do think, however, that the hearing title does 
make one important point, and that is that we need to learn 
from past mistakes.
    These hearing titles are one thing, and then on top of 
that, the majority insists on calling the bill that passed the 
Senate, the Reid-Kennedy bill, as if it were somehow a 
Democrats-only bill that our colleagues somehow ran through 
while Mr. Frist and Mr. Specter weren't paying attention, which 
is completely ridiculous.
    The world knows that this was a bipartisan bill that passed 
with the blessing of Majority Leader Frist, Judiciary Chairman 
Specter, and Senate Republicans from both the moderate and 
conservative ends of the spectrum. While personally I am not 
100 percent enamored with the Senate bill, I admire that body 
at least for working on a bipartisan basis and for passing a 
comprehensive bill, instead of the piecemeal approach that we 
seem to be taking in the House.
    The Republican immigration hearings like the one we are 
holding today are pretty meaningless. In the history of 
Congress, the House has never held hearings on a Senate-passed 
bill before going to conference. If this body is truly serious 
about enacting much-needed border enforcement plus immigration 
reform legislation, they should convene a conference that is 
fair and bipartisan.
    These sham hearings are not fooling the American public. 
Republicans can't run away from their record on failure on 
border security and immigration enforcement. I want to cite two 
quick examples. I know my colleague, Zoe Lofgren, also gave 
some examples, but this is a pretty deplorable record. In the 
9/11 Act of 2004, the Republican Congress promised to provide 
2,000 additional border patrol agents, 8,000 detention beds, 
and 800 immigration agents per year from 2006 to 2010. And yet 
over the last 2 years, that promise has been broken.
    Between 1999 and 2004, worksite immigration enforcement 
operations against companies were scaled by 99 percent by the 
Immigration and Naturalization Service. In 1999, the U.S. 
initiated fines against 47 companies, and in 2004 it issued 
fine notices to exactly three companies. On the other hand, 
Democrats seven times over the last 4\1/2\ years have offered 
amendments on the House floor to enhance border security 
resources. If these amendments had been adopted, there would be 
6,600 more border patrol agents, 14,000 more detention beds, 
and 2,700 more immigration agents along our border than now 
currently exist.
    But each time these efforts have been rejected by the 
Republican majority. It is clear that the Republican rhetoric 
doesn't match the Republican record of neglect and 
underfunding. America deserves an honest debate with all the 
facts on the table, not rhetoric, not cute hearing titles, and 
not demagoguery.
    I thank the Chairman and yield back.
    Mr. Hostettler. The chair recognizes the gentleman from 
Texas, Mr. Smith, for purposes of an opening statement.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, let me just observe at the outset that I 
think it is pretty clear from some of the words used by those 
who have made opening statements who is trying to politicize an 
issue that should not be politicized.
    But, Mr. Chairman, I want to thank you for having this 
hearing. In my judgment, this is probably the most complex, 
sensitive, and emotional issue that America faces today. So I 
think the more hearings on the subject, the better, and the 
more we can learn about such a controversial subject, the 
better as well.
    I do think there is a temptation on the part of some 
individuals to blur the distinction between legal immigrants 
and illegal immigrants. I think that we ought to be clear that 
there is a distinction and it is a meaningful one. Let me also 
say at the outset that legal immigration has in fact made our 
country great. We are the great nation we are today, the most 
prosperous, the freest country in the world, because of the 
contributions that legal immigrants have been making for 
generations.
    America also admits more legal immigrants than any other 
country in the world. In fact, the last time I checked America 
admitted as many legal immigrants as every other country in the 
world combined. That generosity, I believe, should and will 
continue. I have no doubt that America's generosity will be 
perpetuated.
    But there is a proper and essential distinction to be made 
between legal immigrants who have played the rules, waited 
their time in line, and come into the country the right way, 
and those illegal immigrants who have cut in front of the line, 
who have broken our laws, and who have remained in the country 
contrary to our laws.
    In that regard, let me say that while I am not going to be 
able to stay long enough to ask questions today, I would like 
to make a point about the subject of the hearing. That is that 
as I understand the Senate bill, people in the country 
illegally are going to be able to become legalized after only 6 
years. That means that that bill treats illegal immigrants far 
better than we treat those who aspire to be legal immigrants.
    I say that because if you are playing by the rules and 
being patient and waiting your time in line, and are from any 
number of countries, you have a wait that amounts to, in the 
case of Mexico and depending on the family relationship, you 
might have to wait in line 15 years. If you are from the 
Philippines, 23 years. If you are from India, 12 years.
    Now, what kind of a message does it say to those 
individuals who have been waiting and playing by the rules, 
when someone who is in the country illegally gets to be 
legalized after 6 years? Basically, it says that they have not 
been smart to obey the law, and that they ought to try to come 
into the country illegally and they will become legalized much 
more quickly.
    So in other words, unfortunately the message is you are 
going to be rewarded for your illegal conduct. You are going to 
be rewarded far more than those who have played by the rules 
and waited their time in line. In addition to that, you get to 
stay in the country while you are waiting for your legalization 
to occur. That seems to me just not the right way to approach 
the subject of immigration.
    Finally, Mr. Chairman, let me just say that there is a 
panelist today who is a close friend and a colleague from 
Texas, Silvestre Reyes, who I greatly admire and respect. He 
knows as much about immigration as I think anybody in Congress. 
He has been a border patrol chief. He has been on the 
frontlines. He speaks about the subject with sincerity and with 
knowledge.
    I hope I am here long enough--Silvestre, I have to leave at 
11 a.m.--to hear your testimony today, but I appreciate your 
being here as well.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Hostettler. The chair now recognizes the gentleman from 
Virginia, Mr. Goodlatte, for purposes of an opening statement.
    Mr. Goodlatte. Mr. Chairman, thank you very much. Thank you 
for holding this hearing.
    I want to associate myself with and add to the remarks of 
the gentleman from Texas, Mr. Smith. He is quite right. The 
great flaw is the Senate bill, and there are many flaws, but 
the great flaw is the granting of amnesty to people who have 
entered this country illegally, or, and we have not talked much 
about this, entered the country legally on visitor visas, 
student visas, business visas, and then overstayed their visa 
to remain here illegally.
    We need to address that problem, and we need to address it 
in a way that is fair to everybody involved, including people 
who have gone through a very lengthy process. Prior to my 
election to Congress, I was an immigration attorney. I helped 
people and businesses and families who wanted to reunify 
families and to bring in workers that were clearly needed in 
the country, to do that. They go through a very arduous, 
lengthy, complicated, sometimes costly process to comply with 
the law. Some of the people who have been through that process 
are sitting in those lines going through that process today, 
and are the most adamant that we should not be granting amnesty 
to those who short-circuit the process.
    There is another important legal principle here as well. 
That is, with a few exceptions like the spouses of United 
States citizens, we have always imposed the standard of saying 
that if you violate the immigration laws and are illegally in 
the country; if you want to adjust your status, you must go 
outside of the country to adjust your status and come back in.
    It is a very important principle to those people who are 
waiting in those long lines who are trying to do this process 
legally. It is a very important principle to U.S. citizens who 
understand that while we are a nation of immigrants, there 
isn't a person in this room who can't go back a few generations 
or several generations and find somebody in their ancestry who 
came to this country as the land of opportunity that America 
still is today.
    We are also a nation of laws. If you send the message that 
you can break those laws and then be granted amnesty, in fact 
massive amnesty to millions of people, you are sending the 
wrong message. And that is the great flaw of the 1986 bill. It 
wasn't the problem with employer verification. Employer 
verification is in that bill. There is an employer verification 
system there now. It can be improved. Congressman Smith 
attempted to improve that system in the 1990's. It was rejected 
by folks on the other side of the aisle.
    It is a workable system, if it is enforced. I agree with 
those who say that both the Clinton administration and the Bush 
administration have not done enough to enforce our immigration 
laws. But the great flaw in that bill was to say to people, 
``you can come into this country illegally, and then at some 
point in time it is okay to adjust your status here without 
ever having to go outside the country again.''
    That is wrong and that sent the message to millions, 
millions more people, millions more people, that if they did it 
once, they will do it again. And now here we are examining a 
Senate bill that is getting ready to do exactly that once 
again. That is the mistake and we shouldn't repeat it.
    Now, the House bill is a good comprehensive bill when it 
comes to immigration enforcement. I strongly support it. It is 
badly needed. It has to be supported by the Administration to 
carry out the enforcement of the current laws and these 
additions. But those who say there is more to be done, I don't 
disagree with them.
    A workable guest worker program that is truly temporary and 
that truly requires people that are illegally in the country to 
go out of the country to adjust their status and come back in 
is something that can be discussed and negotiated in this 
process. And probably at the end of the day, it will be needed 
to meet the needs of some employers in this country.
    But that is not what the Senate bill does, and that is not 
what we should consider here today. We should examine this flaw 
and examine it from the historic perspective of not making the 
same mistake we made 20 years ago.
    Now, the point has been made that there is a felony 
provision in the House bill that makes it a felony to be 
illegally in the United States. Quite frankly, I think it being 
a misdemeanor is sufficient offense. But an amendment was 
offered on the floor of the House to convert it from a felony 
to a misdemeanor and it was opposed by almost every Member on 
the other side of the aisle, including I think every Member who 
is sitting here today.
    So when the point is made that this House bill is atrocious 
because it has this felony provision, and people sit here today 
and complain about it, I wonder who is playing politics with 
this legislation. I think the point needs to be made that 
enforcing the law has got to be the first priority.
    Mr. Berman. Will the gentleman yield on that?
    Mr. Goodlatte. I will be happy to yield.
    Mr. Berman. I think our point was the House bill is 
atrocious and it creates felonies, not because it creates 
felonies.
    Mr. Goodlatte. I thank the gentleman's comment, but the 
gentleman was not in any way interested about correcting that 
provision in the House bill.
    Mr. Berman. Will he yield further?
    Mr. Goodlatte. I would.
    Mr. Berman. Because the gentleman, and I am referring to 
myself, believed that no part of finding a solution to this 
issue was helped by making criminal, whether it be felony or 
misdemeanor, any aspect of presence in the United States. The 
reason the House bill was atrocious is because it didn't even 
allow amendments on the guest worker issues that you have 
raised.
    Mr. Goodlatte. Reclaiming my time.
    Mr. Hostettler. The gentleman's time has expired.
    Mr. Goodlatte. If I might have 30 additional seconds to 
reply to the gentleman?
    Mr. Hostettler. Without objection.
    Mr. Goodlatte. I thank the Chairman.
    The fact of the matter is that to sit here today and 
complain about the bill, about an aspect of the bill, and you 
may dislike the whole bill. That is fine. I understand that, 
and certainly that would be your vote on final passage.
    But to have the opportunity to correct an aspect, not 
correct it, and then come back in and complain later on, I 
think the gentleman is without good standing to make that 
particular complaint about the felony provision.
    Ms. Waters. Would the gentleman yield?
    Mr. Hostettler. The gentleman's time has expired.
    The gentlelady from California, Ms. Waters, is recognized 
for purposes of an opening statement.
    Ms. Waters. Thank you very much, Mr. Chairman and Members.
    I don't know whether to thank you for this hearing or not. 
I know that this Judiciary Committee led by our esteemed 
Chairman, Mr. Sensenbrenner, passed out a bill from our 
Committee that would have been House bill number 4437, which 
was a very punitive bill that literally created felons out of 
immigrants, many of whom are trying to receive the right to be 
here. I think that was misdirected. I think it was unfortunate, 
and it has set off a firestorm in this nation.
    That bill was absolutely a radical bill. Of course, 
Democrats did not have a lot of choice. We are outnumbered on 
the Judiciary Committee. We could not stop that bill. So that 
bill left out of here, sending a message to this country that 
somehow we wanted to penalize immigrants in the harshest way 
for simply being in this country.
    The Senate tried to correct what was done over on this side 
by coming up with a comprehensive bill. The H.R. 4437 only 
dealt with border security. The Senate bill is a comprehensive 
bill that not only talks about how we secure our border, what 
we do with employers that hire illegal immigrants, and guest 
worker programs, but it was a bill that talked about a path to 
legalization.
    Unfortunately, the Republican talking heads, all of the 
right-wing radio talk shows hosted by the familiar voices, 
labeled the bill an amnesty bill. Well, we all know it is not 
an amnesty bill, but somehow that designation stuck, and the 
people out there in this country began to believe that somehow 
the Senate was irresponsible and it simply passed out a bill 
that would give amnesty to all of these immigrants.
    That is so unfortunate. Normally, and the reason I said 
that I am not so sure I want to thank you for this hearing, we 
should be in conference. This hearing, these hearings should 
have taken place before the Sensenbrenner bill got out of this 
Committee, and I mean serious hearings, and even all over the 
country. I have no reason to want to oppose the fact that we 
should have had hearings. But this is a day late and a dollar 
short, and simply an attempt to politicize this whole issue, 
and to fan the flames of fear about immigration.
    So here we are talking about the Senate bill. All we need 
to do is let the bill go to conference and, you know, people of 
good will go into conference and try to work out the problems. 
Now, what we have is a country that is up in arms about the 
fact that there is an amnesty bill out there and no real 
decent, considered, thoughtful conversation and discussion 
about what we do to deal with the problem of immigration in 
this country.
    Of course, we have some problems, and I don't think there 
is anybody opposed to securing the border. You ask the most 
liberal Democrat, the most conservative Republican, and those 
who are somewhere in the center, wherever that is, and everyone 
will agree that we need to have border security, that we should 
be a country that is concerned about how our immigration 
program works. So we are all on that.
    Now, we have to undo all of this talk about amnesty. The 
Republicans are caught in this situation where they ran out 
with the bill, and now the Chamber of Commerce and all their 
well-heeled friends are saying no, no, no, no, no; we need 
immigrants to do this cheap labor; we need immigrants not only 
in the fields, but we need them in the factories and everyplace 
else. We are beginning to find that some of our upstanding well 
known, well-heeled corporations have been exploiting these 
immigrants.
    Now you have to figure out a way by which you can keep the 
discussion going, calling this amnesty, satisfy your 
conservative corporations that need the cheap labor, and 
somehow come out on top without telling immigrants, and 
particularly Latinos, that somehow you are their friend and 
that you don't really mean to harm anyone. Well, this is all a 
little bit disgusting, but we have to go through this charade. 
We have to go through this charade today to talk about we are 
having a hearing on immigration.
    The fact of the matter is, ladies and gentlemen, I would 
hope that we would take the best parts of the Senate bill and 
honor the work of the Senate, secure the border, make sure that 
those employers who are exploiting these immigrants, are 
penalized and we have something in law that will do that. Think 
thoroughly about this guest worker program, and not simply have 
a guest worker program to satisfy the exploiters. I am not so 
sure we even need the guest worker program.
    Mr. Hostettler. The gentlelady's time has expired.
    Ms. Waters. Unanimous consent for 30 seconds, and I will 
wrap it up.
    Mr. Hostettler. Without objection.
    Ms. Waters. The most important thing is to have a 
legitimate path to legalization. What the Senate point out was 
there is a way that you can do this. We can ask these 
immigrants to pay fines, to learn English, to whatever, but 
give them an opportunity, particularly those who have been in 
this country for years. Many of them have children who are 
legal. They may not be legal, but we should not separate 
families the way that bill that passed out of here would do.
    I would just ask us to try and give some real direction to 
an immigration bill that would make good sense.
    Thank you very much.
    Mr. Hostettler. I thank the gentlelady.
    We will now introduce members of our distinguished panel.
    First of all, the Honorable Silvestre Reyes represents the 
16th District of Texas. Now in his fifth term, Congressman 
Reyes became the first Hispanic to represent his district in 
the United States House of Representatives. The 16th District 
of Texas includes the city of El Paso and surrounding 
communities, and lies within the El Paso County boundary. El 
Paso and Ciudad Juarez comprise the largest border community in 
the United States.
    Representative Reyes has extensive experience in border 
security issues, as has already been mentioned, having spent 
over 26 years with the United States Border Patrol, where he 
eventually served as sector chief in both McAllen and El Paso, 
Texas.
    Phyllis Schlafly founded Eagle Forum in 1972, a national 
organization of citizens who participate in the public 
policymaking process as volunteers. She has testified before 
more than 50 congressional and State legislative committees on 
constitutional, national defense, technological and family 
issues. Mrs. Schlafly served as a member of the Commission on 
the Bicentennial of the U.S. Constitution from 1985 to 1991, 
appointed by President Reagan and chaired by Chief Justice 
Warren Burger.
    Phyllis Schlafly received her J.D. from Washington 
University Law School and is admitted to the practice of law in 
Missouri, Illinois, the District of Columbia and the U.S. 
Supreme Court. She is Phi Beta Kappa and Pi Sigma Alpha, and a 
graduate of Washington University, and received her master's in 
government from Harvard University.
    Steven Camarota is director of research at the Center for 
Immigration Studies. In recent years, he has testified before 
Congress more than any other non-Government expert on 
immigration. His articles on the impact of immigration have 
appeared in both academic journals and the popular press, 
including Social Science Quarterly, The Washington Post, the 
Chicago Tribune, and National Review. He holds a Ph.D. from the 
University of Virginia in public policy analysis and a master's 
degree in political science from the University of 
Pennsylvania.
    James R. Edwards, Jr., is an adjunct fellow with the Hudson 
Institute. Dr. Edwards' publications includes the Congressional 
Politics of Immigration Reform, which was nominated for the 
Hardeman Prize. He has written policy papers on such topics as 
State and local police enforcement of immigration laws, 
ideological exclusion, the connection between legal and illegal 
immigration, and public charge doctrine. His writing has 
appeared in The New York Times, Christian Science Monitor, 
Investor's Business Daily, The Washington Times and elsewhere.
    Members of the panel, as is the custom of our Committee, I 
would ask that you please stand and raise your right hand to 
take the oath.
    [Witnesses sworn.]
    Thank you. You may be seated.
    Let the record reflect that the witnesses responded in the 
affirmative.
    At this time, all members of the panel are instructed that, 
without objection, your written statement will be made a part 
of the record. We have a series of lights in front of you. All 
of you I am sure are very familiar with the 5-minute time 
limit. We ask that you summarize your comments within that 5-
minute time period.
    Congressman Reyes, you are recognized for 5 minutes.

  THE HONORABLE SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you, Mr. Chairman and Ranking Member 
Jackson Lee. Thank you for inviting me to be here and allowing 
me to testify before the Subcommittee this morning.
    As we have sat here for the past hour, I just want you to 
know that the head of the CIA is in my Intelligence Committee, 
where we are working on some very important issues dealing with 
national security, and also at 10:30 I had a hearing in the 
Veterans Committee on cyber-security because of the 26 million 
or so veterans whose Social Security numbers could have been 
jeopardized.
    But I am here, and I only mention that because I want you 
to know how important this issue is to me and to the district 
that I represent, and I think to our country. As I was 
listening to my good friend and colleague from Texas talk about 
our long-time friendship, I have been testifying before 
Congress for the last 15 or 20 years on border security, 
terrorism, drug trafficking and all those kinds of issues.
    So this morning, Mr. Chairman, I would like to preface my 
remarks about the substance of today's hearing on the 
Immigration Reform and Control Act of 1986, with a word or two 
about the process, or perhaps having listened to all of you and 
your opening statements, the politics that actually got us 
here.
    It has been nearly 5 years since the terrorist attacks of 
September 11, 2001. There have been countless investigations, 
hearings and reports about how to secure our borders and curb 
illegal immigration, but far too little in the way of 
meaningful measures to keep America safe, in my opinion. The 
time for talk about these issues has long since passed, and the 
moment of action is now.
    Instead of numerous hearings that may make perhaps good 
politics, but do little to advance sound policy, Congress, all 
of us, need to reach a compromise agreement on comprehensive 
border security and immigration reform legislation.
    I need to tell you that what we are doing now, what we are 
engaged in, is being perceived as convoluted and confusing 
around the country. Since the House Republican leadership is 
moving forward with these kinds of hearings anyway, I have come 
here to share with this Subcommittee my experience in border 
security and immigration reform to help ensure that we do not 
confuse rhetoric with reality on these very important issues of 
national security to our country.
    As many of you have mentioned before, before coming to 
Congress I served for 26\1/2\ years in the United States Border 
Patrol, including 13 years as a sector chief in McAllen and in 
El Paso. During the course of my career, I patrolled the tough 
terrain of the United States-Mexico border region, and I 
supervised thousands of hardworking and dedicated border patrol 
agents and did everything within my power and theirs to 
strengthen our borders and to reduce illegal immigration.
    I am probably the only person in this hearing room and in 
Congress who actually witnessed first-hand the effects of IRCA 
and other immigration legislation passed by Congress. I often 
tell people, including a group of about 300 or 400 last Friday 
night where one of my former colleagues retired, that there is 
good news and bad news in being the only Member of Congress 
that has this background.
    The good news is a lot of people talk to me about it and 
want to get my opinion. The bad news is oftentimes my comments 
and my opinion are disregarded, and we keep on doing the same 
things over and over to the detriment of the security of our 
country. As I said, I represent a border district. In fact, I 
have spent my whole life on the border. I live there today and 
I am honored to represent the people of El Paso and the El Paso 
area in the House of Representatives.
    Like most Americans, and especially given my background and 
experience, I am frustrated by our Administration and the 
leadership in both the House and the Senate and the failure to 
secure our borders and curb illegal immigration. This is 5 
years after 9/11. This is why in coming to Congress, I have 
lobbied my colleagues for greater resources for border 
security, including additional border patrol agents, equipment 
and technology, more immigration inspectors, judges and 
thousands of new detention beds, so we could once and for all 
end the catch-and-release policy of releasing OTMs.
    I have also long supported providing the resources required 
to enforce immigration laws in our nation's interior, including 
tough sanctions against employers who hire undocumented 
workers. If it were harder for an undocumented worker to get a 
job, fewer of them would try to enter this country illegally, 
which would allow the border patrol to focus on those who might 
be trying to come here to do us harm, which by the way was a 
message that my former colleague stressed over and over last 
Friday night.
    Yet in every instance, the leadership and the 
Administration have failed to deliver these very necessary 
resources, even though experts agree that another terrorist 
attack on our country is not a matter of if it happens, but 
when it happens.
    I think my colleagues have gone over the shortages that we 
have seen in terms of the Intelligence Reform Act of 2004, so 
if I can take an additional 30 seconds or so just to give you 
some of my observations, because I know a lot of you have 
expressed opinions on the Immigration Reform and Control Act of 
1986.
    Mr. Hostettler. Without objection.
    Mr. Reyes. If there was a failure, there was a failure in 
that Congress did not fund the resources necessary to enforce 
employer sanctions. I can assure you, based on my own 
experience along the border, employer sanctions worked, and 
they worked very effectively because we had the resources to 
check businesses along the border corridors where I was chief.
    We took that law seriously. Apparently, Congress did not. 
And when people look and say that the Administration has failed 
to enforce the law, it is Congress that has failed to fund the 
resources necessary to prioritize that as part of the process.
    I can also tell you that immediately after the passage of 
the 1986 Immigration Reform and Control Act, we had a downturn 
in attempted illegal entries, that is people trying to enter 
this country. Some sectors were down as much as 80 percent on 
the U.S.-Mexico border.
    The overwhelming reason, and there were surveys taken, the 
overwhelming reason was because people understood that there 
were now employer sanctions that were going to kick in; that 
those were going to be enforced. And so they didn't think it 
was worthwhile to go through all the process of entering this 
country illegally when they weren't going to be able to get a 
job once they got here.
    We failed as a Congress. I can't tell you how frustrating 
it is for me to see us again talking and talking and bantering 
back and forth politically and with great partisanship, when we 
are in danger because we haven't done the things that we have 
promised to do in securing our border.
    I hope that at some point in wrapping up I get a chance to 
talk about H.R. 98, which is a bill that I have cosponsored 
with Congressman Dreier that addresses the Social Security 
card, addresses a system where employers would verify that card 
and the person that presents it, and also gives resources to 
both the Immigration and Customs Enforcement, who are 
responsible for employer sanctions, and Social Security, to be 
able to make that happen. I think H.R. 98 unto itself would be 
one of the most important things that we could do as a 
Congress.
    I very much appreciate the opportunity to be here. As I 
said, although I have those two other hearings going on, I am 
going to sit here and answer any questions that Members may 
have. I hope that we are working our way toward some meaningful 
immigration reform that takes into account all of the 
priorities that were mentioned by Members on both sides, that 
we do come with the Senate and come up with a compromise so 
that we can work for this country in securing its borders and 
its national security.
    With that, thank you for your indulgence, Mr. Chairman. It 
is a pleasure to be here before you and your Subcommittee.
    [The prepared statement of Mr. Reyes follows:]

 Prepared Statement of the Honorable Silvestre Reyes, a Representative 
                  in Congress from the State of Texas

    Chairman Hostettler and Ranking Member Jackson Lee, thank you for 
allowing me to testify before your Subcommittee this morning.
    I would like to preface my remarks about the substance of today's 
hearing on the Immigration Reform and Control Act of 1986 (IRCA) with a 
word or two about the process, or perhaps I should say the politics, 
that got us here.
    In the nearly five years since the terrorist attacks of September 
11, 2001, there have been countless investigations, hearings, and 
reports about how to secure our borders and curb illegal immigration, 
but far too little in the way of meaningful measures to keep America 
safe. The time for talk about these issues has long since passed and 
the moment for action is now. Instead of numerous hearings that may 
make good politics but do little to advance sound policy, Congress 
needs to reach a compromise agreement on comprehensive border security 
and immigration reform legislation.
    Since the House Republican leadership is moving forward with these 
hearings anyway, I have come here to share with this Subcommittee my 
experience in border security and immigration and to help ensure that 
we do not confuse rhetoric with reality on these important issues.
    Before being elected to Congress, I served for 26 + years in the 
United States Border Patrol, including 13 years as Sector Chief, first 
in McAllen, Texas and later in El Paso, Texas. During the course of my 
career, I patrolled the tough terrain of the United States-Mexico 
border region, supervised thousands of hard-working, dedicated Border 
Patrol agents, and did everything within my power to strengthen our 
borders and reduce illegal immigration. I am probably the only person 
in this hearing room who actually witnessed firsthand the effects of 
IRCA and other immigration legislation passed by Congress, on the 
ground in the U.S.-Mexico border region.
    In fact, I have spent my whole life on the border, having been born 
and raised in Canutillo, Texas, which is located near El Paso, Texas. 
Today, I am honored to represent the people of the El Paso area in the 
U.S. House of Representatives.
    Like most Americans, and especially given my background and 
experience, I am frustrated by the Administration and the Republican 
congressional leadership's failure to secure our borders and curb 
illegal immigration, five years after 9/11. That is why since coming to 
Congress, I have lobbied my colleagues for greater resources for border 
security, including additional Border Patrol agents, equipment, and 
technology; more immigration inspectors and judges; and thousands of 
new detention beds so we can end the absurd practice of catch-and-
release of other-than-Mexicans, or OTMs, once and for all.
    I have also long supported providing the resources required to 
enforce immigration laws in our nation's interior, including tough 
sanctions against employers who hire undocumented workers. If it were 
harder for an undocumented worker to get a job, fewer of them would try 
to enter this country illegally, which would allow the Border Patrol to 
focus on those who may be trying to come here to do us harm.
    Yet in every instance, the President and the current leadership in 
Congress have failed to deliver these necessary resources, even though 
experts agree that another terrorist attack on our country is not a 
matter of if, but when.
    For instance, the Intelligence Reform Act of 2004, often referred 
to as the 9/11 Act, called for 2,000 additional Border Patrol agents 
annually from fiscal year 2006 through fiscal year 2010, but Congress 
has fallen well short of providing that number. Time after time the 
Republican leadership has voted against efforts to fund the authorized 
number of agents, leaving the Border Patrol to do the best they can 
with not nearly as many agents as they need.
    Similarly, the 9/11 Act called for 8,000 additional detention beds 
annually for five years, but far fewer have actually been funded. As a 
result, OTMs are still being released with nothing more than a notice 
to appear, not because the Border Patrol wants to release them, but 
because we have nowhere to detain them.
    In total, Congress is 800 Border Patrol agents and 5,000 detention 
beds short of what was promised in the 9/11 Act. If the September 11, 
2001 terrorist attacks did not convince the Administration and 
congressional leaders that border security and immigration must be a 
priority, what will?
    Talk is cheap. What border residents want, and what Americans want 
when it comes to border security and immigration reform, is action.
    With that, Mr. Chairman, thank you again for allowing me to 
participate today. I look forward to hearing from the other members of 
the panel and our witnesses.

    Mr. Hostettler. Thank you, Congressman Reyes.
    The chair now recognizes Mrs. Schlafly.

     TESTIMONY OF PHYLLIS SCHLAFLY, PRESIDENT, EAGLE FORUM

    Mrs. Schlafly. Thank you, Mr. Chairman and Members of the 
Committee.
    As the president of Eagle Forum, a national, conservative, 
pro-family organization of grassroots volunteers, I am in close 
touch with the people you would call grassroots Americans. In 
the last 6 months, I have given speeches in 16 States: Florida, 
Virginia, Utah, California, Georgia, Michigan, Illinois, 
Alabama, New York, Arizona, Arkansas, Missouri, Wisconsin, 
Texas, Kansas and New Jersey.
    I can report that the invasion by illegal aliens is the 
hottest issue across America, even in States far from the 
border, such as Kansas and Georgia. The first question I am 
always asked is: ``Why doesn't the Government get it about 
illegal immigration?''
    Americans are basically a fair-minded people and the 
continued entry of thousands of illegal aliens offends our 
ideals of fairness. Failure to stop the entry of illegal aliens 
is unfair to those who don't have health insurance, but see 
illegal aliens given costly treatment at hospitals for which 
U.S. taxpayers have to pay the bill.
    It is unfair to the legal immigrants who stand in line and 
wait their turn to comply with our laws. It is unfair to our 
friends in Arizona who are afraid to go out of their homes 
without a gun and a cell phone.
    It is unfair to small businessmen who are trying to run an 
honest business, pay their taxes and benefits to employees, but 
cannot compete with their competitors whose costs are so much 
less because they hire illegal aliens in the underground 
economy. It is unfair to American children in public schools 
who see their classrooms flooded with kids who cannot speak 
English and cause a gross decline in the quality of education. 
It is unfair to our own 16 million high school dropouts who 
need those low-wage jobs to start building a life.
    Americans are basically a law-abiding people, and we 
believe our Government has betrayed us by its failure to 
enforce immigration law. Failure to stop the entry of illegal 
aliens is an offense against our fundamental belief that we are 
a nation that respects the rule of law.
    In addition to believing that failure to enforce the law is 
unfair and a betrayal, the American people have lost faith in 
the honesty of our leaders. Americans think we are being lied 
to. Everybody knows that the various plans called 
``legalization'' or ``earned citizenship'' are euphemisms for 
amnesty. The president and other public officials lose 
credibility every time we hear them deny that Senate bill 2611 
is not amnesty. The American people don't like to be talked 
down to by politicians who play games with words.
    Americans also feel lied to by the Senate bill's use of the 
term ``temporary guest workers.'' We know the president and the 
senators are not telling the truth when they imply that guest 
workers will go home after a couple of years. The American 
people are thinking, we don't believe you, and worse, we don't 
believe that you believe what you are saying, because the 
evidence is so overwhelming that guest workers do not go home.
    The Senate bill invites guest workers to a path for 
citizenship after a few years, and anyway, it is obvious that 
those few years give plenty of time to produce an American-born 
anchor baby. The American people also believe we are lied to by 
those who say we cannot get border security unless we also have 
a guest worker program and amnesty-lite. That is what they mean 
when they demand a comprehensive bill.
    Mr. Chairman, you all need to realize that 
``comprehensive'' has become a word as offensive as 
``amnesty,'' because we have figured out that it is just a 
cover for a plan to repeat the mistakes of the 1986 Immigration 
Reform and Control Act known as Simpson-Mazzoli. That was a 
comprehensive bill which combined amnesty with promises of 
border security and sanctions on employers who hired illegal 
aliens. We got amnesty, but we did not get border security or 
employer sanctions. There was massive fraud and the illegal 
population quadrupled.
    The American people are not willing to be cheated again by 
the word ``comprehensive.'' Their attitude is, fool me once, 
shame on you; fool me twice, shame on me. When we hear the word 
``comprehensive,'' we believe that legalization and guest 
workers will be fully implemented, but we will get nothing but 
pie-in-the-sky promises about border security and employment 
verification.
    If you have water in your basement, plan A must be to stop 
more water from coming in before you deal with the water 
already in the basement. Plan A is border security only, House 
bill 4437. We thank Chairman Sensenbrenner and the 88 percent 
of Republican House Members who voted for it. The House bill 
cannot be compromised or conferenced with the Senate bill 
because, in the words of the old adage, you cannot make a silk 
purse out of a sow's ear.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Schlafly follows:]

                 Prepared Statement of Phyllis Schlafly

    My name is Phyllis Schlafly. As the president of Eagle Forum, a 
national conservative, pro-family organization of volunteers, I am in 
close touch with the people you would call grassroots Americans. In the 
last six months, I have given speeches in 16 states: Florida, Virginia, 
Utah, California, Georgia, Michigan, Illinois, Alabama, New York, 
Arizona, Arkansas, Missouri, Wisconsin, Texas, Kansas, and New Jersey. 
I can report that the nationwide invasion by illegal aliens is the 
hottest issue across America C even in states far from the border such 
as Kansas and Georgia. The first question I am always asked is: Why 
doesn't the government get it about illegal immigration?
    Americans are basically a fair-minded people, and the continued 
entry of thousands of illegal aliens offends our ideals of fairness.
    Failure to stop the entry of illegal aliens is unfair to those who 
don't have health insurance but see illegal aliens given costly 
treatment at U.S. hospitals for which U.S. taxpayers have to pay the 
bill. It is unfair to the legal immigrants who stand in line and wait 
their turn to comply with our laws. It is unfair to our friends in 
Arizona who are afraid to go out of their homes without a gun and a 
cell phone. It's unfair to small businessmen who are trying to run an 
honest business, pay their taxes and benefits to employees, but can't 
compete with their competitors whose costs are so much less because 
they hire illegal aliens in the underground economy. It is unfair to 
American children in public schools who see their classrooms flooded 
with kids who can't speak English and cause a gross decline in the 
quality of education. It's unfair to our own high school dropouts who 
need those low-wage jobs to start building a life.
    Americans are basically a law-abiding people and they believe our 
government has betrayed us by its failure to enforce immigration law. 
Failure to stop the entry of illegal aliens is an offense against our 
fundamental belief that our nation respects the Rule of Law.
    In addition to believing that failure to enforce the law is unfair 
and a betrayal, the American people have lost faith in the honesty of 
our leaders. Americans think we are being lied to.
    Everybody knows that the various plans called legalization or 
earned citizenship are euphemisms for amnesty. The President and other 
public officials lose credibility every time we hear them deny that 
giving illegal aliens a path to citizenship is not amnesty. The 
American people don't like to be talked down to by politicians who play 
games with words.
    Americans also feel lied to by the Senate bill's use of the term 
``temporary guest workers.'' We know the President and the Senators are 
not telling the truth when they imply that guest workers will go home 
after a few years. The American people are thinking, we don't believe 
you C and worse, we don't believe that you believe what you are saying 
because the evidence is so overwhelming that guest workers do not go 
home. The Senate bill gives guest workers a path to citizenship after a 
few years and, anyway, it's obvious that those few years give plenty of 
time to produce an American-born anchor baby.
    The American people also believe we are lied to by those who say we 
can't get border security unless we also have a guest-worker program 
and ``amnesty lite.'' That's what they mean when they demand a 
``comprehensive'' bill. But ``comprehensive'' has become a word as 
offensive as amnesty because we have figured out that it is just a 
cover for a plan to repeat the mistakes of the 1986 Immigration Reform 
and Control Act, known as Simpson-Mazzoli. That was truly a 
comprehensive law which combined amnesty with promises of border 
security and sanctions on employers who hired illegal aliens. The 
illegal aliens got their amnesty B but we did not get border security 
or employer sanctions. There was massive fraud, and the illegal 
population quadrupled.
    The American people are not willing to be cheated again. Their 
attitude is: Fool me once, shame on you; fool me twice shame on me. 
When we hear the word ``comprehensive,'' we believe that legalization 
and guest workers will be fully implemented, but that we will get 
nothing but pie-in-the-sky promises about border security and 
employment verification.
    If you have water in your basement, Plan A must be to stop more 
water from coming in C before you deal with the water already in the 
basement. Plan A is border security only, House bill 4437. We thank 
Chairman Sensenbrenner and the 88% of Republican House Members who 
voted for it. The House bill cannot be compromised with the Senate bill 
because, in the words of the old adage, you can't make a silk purse out 
of a sow's ear.

              I. THE SENATE BILL REPEATS THE 1986 MISTAKES

    When President Bush went to Cancun, Mexico, in March, he said that 
he is committed to signing a ``comprehensive immigration bill. And by 
`comprehensive,' I mean not only a bill that has border security in it, 
but a bill that has a worker permit program in it. That's an important 
part of having a border that works.'' In his nationally televised 
speech on May 15, President Bush reiterated that we can't have border 
security unless we also have a ``comprehensive'' bill including 
legalization and guest workers.
    There are two problems with that argument. First, it is downright 
ridiculous to say that our government can't stop illegals from entering 
our country unless we legalize large numbers who want to come in. The 
United States has troops guarding borders all over the world, and it is 
not credible that we can't guard our own border. Second, we don't 
believe that the people who make that argument will ever give us border 
security. There is no hard evidence that they want to stop illegal 
aliens from coming into our country. George Bush has had six years to 
enforce border security. When grassroots Americans don't believe the 
President is leveling with us, it damages the moral fabric of our 
nation.
    The Senate bill would give legal status and a path to citizenship 
(i.e., amnesty) to the 11 to 20 million aliens (workers, spouses and 
children) who entered our country illegally and have been using 
millions of fraudulent documents. They would then become recipients of 
our generous entitlements. The cost to the taxpayers of this monumental 
expansion of the welfare state would be at least $50 billion a year. 
U.S. taxpayers would be saddled with paying for the entitlements of 
these low-income families, including Medicaid, Social Security (with 
credit for FICA taxes paid under false numbers), Supplemental Security 
Income, Earned Income Tax Credit (cash handouts of up to $4,400 a year 
to low-wage households), the WIC program, food stamps, public and 
subsidized housing, Temporary Assistance to Needy Families, public 
schooling and school lunches, and federally funded legal 
representation.
    The Simpson-Mazzoli Act is a good model of how any type of 
legalization or ``amnesty light'' will be fraught with fraud. That 1986 
Act was expected to amnesty one million people; it turned into three 
million. Five illegals who received amnesty in 1986 subsequently 
participated in the attack on the World Trade Center in 1993. One of 
them, the terrorist Mahmud ``The Red'' Abouhalima, a New York City taxi 
driver who got amnesty as an agricultural worker, used his legal status 
to travel to Afghanistan for terrorist training and then return to 
attack us.
    Even worse than the Senate bill's plan to deal with the illegal 
aliens now in the United States is its mammoth legalization of 
foreigners under the deceitful words ``temporary'' and ``guest-
worker.'' The newly imported workers will not be temporary and will not 
be guests. We are indebted to the Heritage Foundation for its stunning 
report proving that the Senate bill is a stealth open borders bill that 
will import about 66 million people into our country permanently and 
put them on the path to citizenship. This is ``the most monumental bill 
ever considered'' and its mindboggling costs would be the largest-ever 
expansion of taxpayer-paid entitlements.
    The fine print in the Senate bill describes how the so-called 
temporary guest workers, who will be given new H-2C visas, will convert 
to legal permanent residents with the right to become U.S. citizens 
after five years. The plan would start by importing 200,000 foreign 
workers with new H-2C visas in the first year. The H-2Cers can 
immediately bring in their family members on H-4 visas, without being 
required to have a physical, and they also will get permanent legal 
residence and citizenship.
    The demographics of the new guest workers would be similar to those 
of the illegal aliens already in our country. Over half are high school 
dropouts, they work low-paid jobs that require little or no income tax 
to be paid, they are 50% more likely to receive tax-paid benefits than 
natural-born households, and they have a 42% rate of out-of-wedlock 
births (all of whom, of course, will be granted automatic U.S. 
citizenship). Working low-income jobs, they will qualify for the cash 
handouts called the Earned Income Tax Credit paid by taxes imposed on 
American citizens.
    The Senate bill would, within 20 years, make 25% of our population 
foreign born (most of them high school dropouts), even though Pew 
Research reports that only 17% of Americans support increased 
immigration. It is impossible in so short a time to assimilate 66 
million people whose native culture does not respect the Rule of Law, 
self-government, private property, or the sanctity of contracts, and 
who are accustomed to an economy based on bribery and controlled by 
corrupt police and a small, rich ruling class that keeps most of the 
people in dire poverty.
    The Senate bill would give the so-called temporary guest workers 
preferential rights that American citizens do not have. The temporary 
workers can't be fired from their jobs except for cause, they must be 
paid the prevailing wage, and they can't be arrested for other civil 
offenses if they are stopped for traffic violations.
    The bill assures the illegals they can have the preference of in-
state college tuition (a large taxpayer-subsidized benefit of up to 
$20,000 a year), which is denied to U.S. citizens in 49 other states, 
plus certain types of college financial assistance.
    After the so-called temporary guest workers and their spouses 
become citizens, they can bring in their parents as permanent residents 
on the path to citizenship. Although the parents have never paid into 
Social Security, they will be eligible for Supplemental Security Income 
(SSI) benefits. Siblings and adult children and their families will be 
given preference in future admissions.
    A system of temporary guest workers would give America a future 
like France, which is staggering under multicultural guest workers and 
bloated tax-paid welfare entitlements. It would turn the United States 
into a boarding house for the world's poor by enabling employers to 
import millions of ``willing workers'' at low wage-levels.
    There is still more that is disastrous about the Senate bill. It 
would invite into our country with guest-worker status 115,000 skilled 
workers on H-1B visas, and raise the number each year. H-1Bs encourage 
corporations to hire engineers and computer specialists from India, 
Pakistan and China at half the salary Americans would be paid. The 
Senate bill would exempt from the H-1B visa cap and put on the track 
for permanent residence all foreigners who get advanced degrees from a 
U.S. university (an additional discrimination against U.S. graduates in 
technical subjects).
    The Senate bill would also create a new F-4 visa category for 
foreign students pursuing an advanced degree in math, science, 
engineering or technology and put them on the track for permanent 
residence (thereby discouraging U.S. students from majoring in math and 
science).
    When I lecture on college campuses, students tell me they are 
switching out of computer science because they are told that there are 
almost no jobs available for computer majors. Of course there are 
plenty of computer jobs, but not for Americans because big business 
would rather hire foreigners. This system is not the free market; it's 
politicians and corporations conniving to do an end run around our 
immigration laws in order to keep wages artificially low.
    The rationale for inviting H-1B foreigners to take American jobs is 
an alleged labor shortage, but we never had any shortage in engineers 
or computer technicians. The labor-shortage claim is ridiculous today 
since there are more than 100,000 unemployed or underemployed Americans 
with those skills. After the dot-com bust a few years ago, tens of 
thousands of computer workers and engineers left Silicon Valley and 
took any job they could get, of course at a fraction the pay they had 
been receiving.
    The promise that employers will offer jobs to Americans first is a 
sick joke. American engineers and computer techies who lost their jobs 
to foreigners under the H-1B visa guest-worker racket know that a look-
for-Americans-first rule is never enforced and easily evaded.
    At least 463,000 H-1B workers are employed in the United States, 
and some estimate twice that number. H-1Bers who are hired by 
universities and other exempt institutions are not in the count. During 
the third quarter of last year, high tech companies in the U.S. laid 
off workers in record numbers, but they didn't lay off H-1B workers. 
Just before being laid off, hundreds of American engineers and computer 
specialists were forced to train their foreign replacements.
    The best research on the economics of H-1B workers has been done by 
Professor Norman Matloff of the University of California/Davis.
    It's bad news for America's future if the corporations learn to 
rely on foreigners for all their computer work. Americans, not 
foreigners, are the source of the technical innovations we need to stay 
ahead in the fast-moving computer industry. Of the 56 awards given by 
the Association for Computing Machinery for software and hardware 
innovation, only one recipient was an immigrant.

          II. ``COMPREHENSIVE'' COMPROMISES ARE MISTAKES, TOO

    Faced with the American people demanding border security, we now 
hear some voices saying, okay, we'll package border security with 
legalization and guest worker, and we'll even promise to deal with 
border security first. We don't believe them. We have to see proof that 
the border is closed to illegal aliens and to illegal drugs before we 
talk about anything else. These so-called compromise plans are heading 
down the same failed road as the Simpson-Mazzoli Act.
    For example, the bill proposed by Rep. Mike Pence tries to play the 
game of asserting border security first followed by legalization of 
current illegal aliens and a massive guest worker plan. This has all 
the defects of the Senate bill and in some respects it is even worse 
because, as Pence wrote in the Wall Street Journal, ``There will 
initially be no cap on the number of visas that can be issued.'' These 
visas would be distributed at offices anywhere in the world under the 
cutesy name Ellis Island Centers. Anyone may apply for these guest-
worker visas from anywhere in the world. The Pew Hispanic Center 
reports that 49 million Mexicans want to live in the United States if 
they get the opportunity. There may be 5 billion people in the world 
who would like to come to America.
    These Ellis Island Centers would be financed by private industry, 
which Pence claims would be more efficient than government bureaucracy. 
Business would, indeed, be more efficient than government in importing 
more foreign workers, but it would be like putting the fox in charge of 
the chicken coop. Private industry has a built-in incentive to import 
as much cheap labor as possible.
    Private industry would no doubt be happy to set up Ellis Island 
Centers in India, Pakistan and China to completely bypass any limit on 
H-1B visas and bring in an unlimited number of lower-paid engineers and 
computer techies to replace Americans. Private industry will be only 
too happy to set up Ellis Island Centers in the Philippines (where 
tuberculosis is rampant) and bring in an unlimited number of lower-paid 
nurses to decimate the U.S. nursing profession.
    In dealing with the problem of the illegal aliens now in our 
country, Pence tries to avoid the amnesty label by requiring them to 
make what he calls ``a quick trip across the border'' to Mexico or 
Canada to pick up a new visa so long as a U.S. employer certifies that 
a job awaits him. Pence told Time Magazine that his bill ``will require 
the 12 million illegal aliens to leave.'' We'll believe that only if we 
actually see it happen.
    What about the millions of illegal aliens in the U.S. today who do 
not have an employer willing to go on record as guaranteeing a job for 
a foreigner? These would include the relatives of jobholders, the day 
laborers, and the millions of illegal aliens working in the U.S. 
underground cash economy (an estimated 40% of the total). Pence's 
proposal is silent on this.
    The Pence plan provides that the guest workers, after living here 
legally for six years, can choose whether to apply for citizenship or 
to return home. What if the aliens don't choose either option but just 
remain? Will they be deported after they have raised a family and 
established roots? Six years is ample time to have a U.S.-born anchor 
baby and start family chain migration.

          III. GUEST WORKER PLANS ARE IMMORAL AND UN-AMERICAN

    Even if a guest worker plan actually works the way it is promised, 
it would be immoral and un-American. Theodore Roosevelt warned: ``Never 
under any condition should this nation look at an immigrant as 
primarily a labor unit. We cannot afford to continue to use hundreds of 
thousands of immigrants merely as industrial assets while they remain 
social outcasts and menaces any more than 50 years ago we could afford 
to keep the black man merely as an industrial asset and not as a human 
being.''
    Inviting foreigners to come to America as guest workers is 
equivalent to sending the message: You people are only fit to do menial 
jobs that Americans think they are too good to do. We will let you come 
into our country for a few years to work low-paid jobs, but you have no 
hope of rising up the economic and social ladder, and we do not expect 
(or want) you to become Americans.
    Inviting foreigners to come to America to do jobs that Americans 
think they are too good to do would create a subordinate underclass of 
unassimilated foreign workers, like the serf or peasant classes that 
exist in corrupt foreign countries such as Mexico or Saudi Arabia. 
That's not the kind of economy or social structure that made America a 
great nation.
    Some people say that leaving our borders open to people who want to 
sneak into our country illegally is the compassionate and Christian 
thing to do. On the contrary, it is uncaring and immoral to close our 
eyes to the crime on our southern border.
    Failing to close our border to illegals means giving up on the war 
on drugs because most illegal drugs come over our southern border and 
then are shipped all over the United States. Drug smugglers armed with 
automatic weapons, global-positioning units and night-vision scopes 
have become increasingly aggressive in protecting their illicit 
cargoes. Attacks on our Border Patrol agents have risen fivefold in the 
past year. Mexican drug cartels are even running illegal marijuana 
farms in our national parks, protected by booby traps and guards 
carrying AK-47s.
    The smuggling of human beings over our border is an organized 
criminal racket that ought to be stopped, and the number of illegal 
crossings has significantly increased ever since the President began 
talking about his guest-worker/amnesty plan. That's no surprise; the 
amnesty we granted in 1986 vastly increased the number of illegal 
aliens.
    The smugglers charge thousands of dollars for the promise to bring 
people across the border, and then often hold them for ransom until 
additional payments are made. Female border crossers are often raped by 
the same smugglers who were paid $2,000 for safe passage. Hundreds die 
from thirst and dehydration when crossing the desert or in locked 
trucks without air or water. How many people will have to die before 
our government closes our border so that smugglers and their victims 
won't believe the illegal racket is worth the risk?
    Legal immigrants must be healthy to be admitted, but nobody is 
giving a health exam to people sneaking across the border. Illegal 
aliens are bringing in diseases such as Chagas that were formerly 
unknown in the United States, plus bedbugs and diseases we had 
eradicated decades ago such as tuberculosis, malaria and even leprosy.
    Failure to close our border to illegals means that Arizonans live 
in fear of the aliens who trespass across their land every night, 
destroying their property, tearing down fences, and killing their 
animals. Since President Bush lives in a house protected by a fence, 
why can't Arizonans be protected by a fence? The most moral and 
humanitarian thing we can do is to erect a fence and vastly increase 
the number of our border agents in order to stop the drugs, the 
smuggling racket, the diseases, and the crimes.
    France and Germany have already demonstrated the folly of a guest-
worker economy. They admitted foreigners to do low-paid jobs, and now 
both countries have millions of foreign residents who do not 
assimilate, who burden the social welfare system, and who become more 
disgruntled and dangerous every year.
    Guest-worker/amnesty would help to perpetuate Mexico's corrupt 
economic system, which keeps a few people very rich and most Mexicans 
in abject poverty. Mexico is a very rich country with enormous 
quantities of oil, but the oil is entirely owned by the government. The 
wealthy Mexican elites are glad to export some of their dissidents and 
unemployed so they can get jobs in the United States and send back $20 
billion a year to Mexico.

          IV. BORDER SECURITY IS ESSENTIAL AND MUST COME FIRST

    When is our government going to protect us from the crime, the 
drugs, the smuggling racket, destruction of property, and the 
endangerment to U.S. residents along our border and to our undermanned 
Border Patrol?
    President Bush bragged in his speech that ``we have apprehended and 
sent home about six million people entering America illegally,'' but he 
didn't say how many of those six million were repeats. Maybe a truthful 
figure would be one million people deported six times, while the number 
of illegal aliens in the United States increased by five million after 
Bush became President. The illegal alien who drove 100 miles an hour on 
Interstate 485 on the wrong side of the highway, killing a University 
of North Carolina coed in November 2005, had been returned to Mexico 17 
times. Did Bush count him 17 times in his six million figure?
    President Bush's choice of verbs shows that his talk of border 
barriers, technology and more agents are empty promises. All the good 
stuff that he proposed was prefaced by the words ``we will;'' he never 
said ``we are'' doing these things. Bush said, ``To secure the border 
effectively we must reduce the numbers of people trying to sneak 
across. That's impossible. The Pew Hispanic Center reports that 46% of 
the population of Mexico would like to live in the United States, and 
20% would come illegally if they could.
    At least 85% of the illegal drugs coming into the United States are 
coming across our southern border. Our so-called war on drugs is a 
farce unless our government closes our southern border. There is, 
indeed, a drug war going on, but it is a war between rival Mexican drug 
gangs C with the U.S. government a bystander lacking manpower or 
weapons to take action. Are we going to continue to leave our border 
agents sitting ducks for Mexican snipers?
    Our government recently seized an enormous cache of weapons in 
Laredo, Texas. This included two completed Improvised Explosive Devices 
(IEDs), materials for making 33 more, military-style grenades, 26 
grenade triggers, large quantities of AK-47 and AR-15 assault rifles, 
1,280 rounds of ammunition, silencers, machine gun assembly kits, 300 
primers, bullet-proof vests, police scanners, sniper scopes, narcotics, 
and cash.
    The Department of Homeland Security admits that there have been 231 
documented incursions by Mexican military or police, or drug or people 
smugglers dressed in military uniforms, during the last ten years, 
including 63 in Arizona, and several Border Patrol agents have been 
wounded in these encounters. Our Border Patrol agents say they are 
often confronted by corrupt Mexican military units employed to protect 
and escort violent drug smugglers.
    Meanwhile, the news media have shown us pictures of the 
sophisticated 2,400-foot tunnel running from Mexico under our border to 
a warehouse in San Diego. U.S. authorities recovered more than two tons 
of marijuana, and it is unclear how long the tunnel has been in 
operation or how many tons of drugs already passed through. It is 
believed that the drug cartel started building the tunnel two years 
ago. Why did it take our government two years to discover it?
    The U.S. Department of Homeland Security issued an Officer Safety 
Alert on December 21, 2005, stating: ``Unidentified Mexican alien 
smugglers are angry about the increased security along the U.S./Mexico 
border and have agreed that the best way to deal with U.S. Border 
Patrol agents is to hire a group of contract killers.'' The alert 
states that the smugglers intend to bring members of the Mara 
Salvatrucha street gang, known as MS-13, to perform the killings.
    MS-13 is one of the most brutal and dangerous gangs in the world. 
In addition to murder, MS-13 engages in mutilation, beheadings, 
chopping off of fingers, and torture. MS-13 is now estimated to have 
10,000 members in 33 U.S. states and another 50,000 in Mexico and 
Central America. T.J. Bonner, president of the National Border Patrol 
Council, said, ``MS-13 has shown that its members have very little 
regard for human life. Some of the atrocities they have committed are 
truly unspeakable, and it worries me to know that our agents on the 
line are now the targets.''
    In reporting on Mardi Gras on February 27, CBS-TV Evening News 
aired a segment on how the tattooed MS-13 street gang has invaded New 
Orleans. CBS explained that they are vicious beyond anything New 
Orleans police have ever experienced, and will kill a policeman 
immediately rather than run the risk of being deported. MS-13 members 
are usually laborers by day and murderers by night. They came to 
Louisiana to take jobs as carpenters, plumbers, and other construction 
jobs (jobs that should be reserved for displaced Louisiana citizens).
    The New York Times reported that 18,207 illegal OTMs (Other Than 
Mexicans) were the beneficiaries of the Bush Administration's 
scandalous ``catch and release'' procedure in the three months since 
Homeland Secretary Michael Chertoff promised to ``return ever single 
illegal entrant--no exceptions.'' Catch and release means that the 
illegal OTMs are not deported but, after they are caught, they are 
released on their own recognizance with instructions to reappear a few 
weeks hence, with everybody understanding that they will disappear into 
the American population.
    An estimated 400,000 people who have been ordered out of the United 
States, including many convicted criminals or those from terrorist 
states, are still living in the U.S. because federal officials have 
failed to ensure their removal.
    Immigration investigators busted a 16-member smuggling ring in El 
Paso that brought thousands of illegal aliens into the U.S. The 
smugglers charged the aliens $1,500 to $6,000 each, depending on their 
point of origin. Rig drivers were paid $300 for each alien they 
successfully delivered to Dallas. The illegals were squeezed into truck 
trailers; one had 79, another had 51 riding in a locked trailer with no 
food and one empty 20-ounce water bottle.
    The Mexican government is facilitating illegal entry by 
distributing maps of dangerous border areas along with safety 
instructions and other tips. The maps provide details of the terrain, 
cell-phone coverage, and water stations.
    Let's put border security in perspective. We currently have 37,000 
U.S. troops guarding the 151-mile border between North and South Korea, 
but we have fewer than 12,000 agents to monitor 2,000 miles of our 
southern border. President Bush seems to think that we will be 
comforted by 6,000 National Guardsmen sent to the southern border for 
one year C not to guard the border, but merely to ``assist'' our Border 
Patrol. A month after his speech, only 100 Guardsmen had reached the 
border.

           V. ILLEGAL IMMIGRATION IS AFFECTING AMERICAN JOBS

    The American people know, even if our government doesn't seem to 
get it, that the vast influx
    of foreigners is costing Americans both jobs and good wages. We see 
this in unskilled entry-level jobs, needed by our own high school 
dropouts and college students, all the way up to skilled jobs needed by 
our engineers and computer specialists. This is not the operation of 
the free market; it is the result of the failure of our government to 
enforce border security, track foreigners who overstay their visas, and 
enforce the law about employment verification.
    President Bush said that ``businesses often cannot verify the legal 
status of their employees.'' On the contrary, the technology is already 
in place for employers to verify the legality of Social Security 
numbers, but only a tiny percentage of employers voluntarily do this.
    A study published by the National Bureau of Economic Research 
reported that the surge of immigration in the 1980s and 1990s lowered 
the wages of our own high school dropouts by 8.2%. The surge has 
accelerated since that report was issued. Bush wants to give U.S. jobs 
to foreigners so they can rise ``from a life of low-paying jobs to a 
diploma, a career, and a home of their own.'' He shows no compassion 
for the millions of American high school dropouts who need those entry-
level jobs.
    At Cancun, Mexico in March, President Bush repeated the falsehood 
that illegal aliens are ``doing work that Americans will not do.'' 
According to the Pew Hispanic Center, illegal aliens are less than 5% 
of our labor force. If every one of the illegal aliens in our country 
played hooky from his job, the overwhelming majority of those same 
types of jobs will be worked by millions of American citizens. All over 
the country, American citizens flip hamburgers in fast-food shops, wash 
dishes in restaurants, change sheets in hotels, mow lawns, trim shrubs, 
pick produce, drive taxis, replace roofs on houses, and do all kinds of 
construction work. Americans are quite willing to work unpleasant, 
menial, tiresome, and risky jobs, but not for Third World wages.
    An employment service in Mobile, Alabama received an ``urgent 
request'' this year to fill 270 job openings from contractors who were 
hired to rebuild and clear areas of Alabama devastated by Hurricane 
Katrina. The agency immediately sent 70 laborers and construction 
workers to three job sites. After two weeks on the job, the men were 
fired by employers who told them ``the Mexicans had arrived'' and were 
willing to work for lower wages. The Americans had been promised $10 an 
hour, but the employers preferred Mexicans who would work for less. 
Employment agency manager Linda Swope told the Washington Times, ``When 
they told the guys they would not be needed, they actually cried . . . 
and we cried with them. This is a shame.''
    Ms. Swope said that employment agencies throughout Alabama, 
Louisiana and Mississippi all face similar problems because an 
estimated 30,000 men from Mexico and Central and South America, many in 
crowded buses and trucks, came into those three states after Hurricane 
Katrina, willing to work for less than whatever was paid to American 
citizens.
    Meanwhile, President Bush signed the Katrina Emergency Assistance 
Act extending for 13 weeks the unemployment benefits to Americans 
displaced by Katrina. Employers get the benefit of cheap foreign labor 
while you and I provide taxpayer handouts to the guys whom the 
government allows to be displaced from jobs they were eager to take.
    There is no penalty on employers who replace Americans with illegal 
aliens at lower pay. Homeland Security even announced it has suspended 
the sanctioning of employers who hire illegal aliens, and President 
Bush suspended the Davis-Bacon Act, which requires local contractors to 
pay ``prevailing'' wages.

                 VI. WHY DOESN'T OUR GOVERNMENT GET IT?

    It is self-evident that the Senate bill or any so-called 
``comprehensive'' immigration bill will be a rerun of the 1986 Simpson-
Mazzoli mistake. The American people are demanding border security now 
and before any discussion of other legislation. We don't understand why 
so many government officials just don't get it. We thank Chairman 
Sensenbrenner and the 88% of House Republicans who understand what 
America's priorities should be.
    When President Bush visited Cancun, Mexico this spring, he met 
privately with the Mexican president and wealthy CEOs from both 
countries. He said the Cancun meeting celebrated the first anniversary 
of his signing the Security and Prosperity Partnership at the 2005 
summit in Waco, Texas. Is the real push behind the ``comprehensive'' 
amnesty/guest-worker proposals the Bush goal to keep our borders open 
and lock us into the Security and Prosperity Partnership of North 
America?

    Mr. Hostettler. Thank you, Ms. Schlafly.
    Dr. Camarota.

TESTIMONY OF STEVEN CAMAROTA, DIRECTOR OF RESEARCH, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Camarota. Mr. Chairman and Members of the Subcommittee, 
thank you for offering me the opportunity to testify. My name 
is Steve Camarota. I am director of research at the Center for 
Immigration Studies, a nonprofit, nonpartisan research 
organization here in Washington.
    As you all know, in April of this year, the Senate passed 
S. 2611. The bill legalizes an estimated 10 million illegal 
aliens, allows some 4.5 million of their family members 
currently abroad to immediately join them, and it dramatically 
increases the number of people who are allowed into the country 
on a legal basis in the future.
    Now, most of the problems with S. 2611 actually closely 
parallel the mistakes of the 1986 amnesty. In my oral 
testimony, I will focus on four of the biggest problems with 
the legislation. The first key problem with the Senate plan is 
that its central feature is to legalize illegals and increase 
legal immigration. Yet we know that this does not solve the 
problem. In 1986, we legalized 2.7 million illegals, and legal 
immigration to this country has doubled since the mid-1980's, 
but we still have two-and-a-half times as many illegals as when 
IRCA was passed.
    Particularly with regard to more legal immigration, it will 
only further spur more illegal immigration because the larger 
the pool of immigrants, legal or illegal, in the country, the 
greater the pool is for more illegal immigration. There is a 
whole sociological literature on this. It is often legal 
immigrants who provide the information about jobs and housing 
to their relatives and friends back home. Illegal aliens often 
live with legal immigrants. The bottom line is legal 
immigration has been increasing for more than three decades, 
and illegal immigration has been increasing right along with 
it.
    The second problem with 2611 is it repeats the mistake of 
having the amnesty come before enforcement is actually 
implemented. Like in 1986, the illegals themselves, along with 
very powerful interest groups, will ensure that that amnesty 
does go through. But there is no corresponding set of interest 
groups pushing for enforcement.
    While enforcement is in the broad national interest and the 
public certainly wants it, these are diffuse political forces 
and traditionally have not been enough to overcome pressure on 
both parties from those who don't want the law enforced, namely 
ethnic advocacy groups and elements of the business community. 
By putting amnesty first, S. 2611 is almost guaranteed to be a 
replay of IRCA.
    Now, the third major mistake made by S. 2611 is it will not 
solve the problem of labor market competition between less-
educated natives and illegal aliens. If illegal aliens are 
legalized and allowed to stay, the poorest and least-educated 
American workers will still face job competition from the 
former illegal aliens.
    The primary reason illegal immigrants reduce wages or job 
opportunities for less-educated natives is not so much that 
they work for less, though that certainly can happen and does, 
the primary reason they harm less-educated natives is simply 
their presence in the country.
    It is basic economics. If you increase the supply of 
something, in this case less-educated workers, you reduce its 
price, and the price of less-educated labor is the wages and 
benefits paid to such workers. Letting illegal aliens stay and 
increasing legal immigration through guest worker programs and 
so forth only makes sense if we think the poor in this country 
are overpaid.
    Illegal aliens themselves may benefit from legalization, 
and that is true, but there is no evidence after the last 
amnesty that native-born Americans with little education, who 
face the job competition from illegals, saw an increase in 
their wages and benefits. The general trend since the mid-
1980's is for such Americans with little education to do worse 
in the labor market, a trend that will continue if illegals are 
allowed to stay and we increase legal immigration further.
    The fourth problem with the Senate plan is that, like IRCA, 
it doesn't deal with the fiscal costs of illegal immigration. 
Illegal aliens create a drain on public coffers mainly because 
they are overwhelmingly unskilled, not because they are 
illegal. At least 60 percent of illegals lack a high school 
degree, and another 20 percent have only a high school degree. 
Such persons pay relatively little in taxes regardless of legal 
status because they earn so little in the modern American 
economy.
    The National Research Council has estimated that an 
immigrant who comes to the United States without a high school 
education will use $89,000 more in services than he pays in 
taxes in his lifetime. One who has only a high school education 
is a net fiscal drain in his lifetime of $31,000. My own 
research shows that if we legalized illegal aliens and they 
began to pay taxes and use services like legal immigrants with 
the same level of education, the costs of illegal immigration 
would roughly triple.
    History does not have to repeat itself. Congress can pass 
sensible legislation that polices the border, goes after the 
employers who hire the illegal aliens. The bill the House 
passed in December goes a long way in this regard. The problem 
with illegal immigration can be solved, but not by repeating 
the mistakes of the past.
    Thank you.
    [The prepared statement of Mr. Camarota follows:]

                Prepared Statement of Steven A. Camarota

    In April of this year the Senate passed the most dramatic changes 
in US immigration law in the nation's history. Among other things, the 
bill legalizes an estimated 10 million illegal aliens, allows some 4.5 
million of their family members abroad to immediately join them, and it 
dramatically increases the number of people allowed into the country 
legally. In this testimony I will point out some of the key problems 
with the Senate legislation. In many ways the fiscal, labor market, 
administrative, and other problems S2611 would create closely parallel 
the problems created by the last amnesty, which was passed in 1986.
 amnesty mocks the law abiding and encourages more illegal immigration
    S2611 is Very Much Like the IRCA Amnesty. The Senate plan is very 
much like the last amnesty passed as part of the Immigration Reform and 
Control Act (IRCA) passed by Congress in 1986. Any legislation that 
does not require those who break the law to abide by it, but instead 
suspends the normal penalty and in some way changes the law to 
accommodate the violator is an amnesty. An amnesty in the immigration 
system is any change that allows people who would otherwise be subject 
to deportation to stay in the country. The idea that S2611 is not 
amnesty because it does not give permanent residence to illegals 
immediately is silly. Normally, illegal aliens would be subject to 
deportation. If 2611 becomes law perhaps 10 million illegal immigrants 
would be allowed to stay and work in the United States, which is de 
facto permanent residence and then after a few years would get actual 
permanent residence and then citizenship.
    Some have suggested that the concept of amnesty is based on the 
idea of forgiveness, and S2611 does not forgive illegals because they 
will have to pay a fine and met other requirements. But, the last 
amnesty for illegals in 1986, which was called an amnesty by everyone 
at that time, had similar requirements of undergoing a background 
check, paying a fine, and learning English. Moreover, consider the case 
of tax amnesties run by the states. Violators pay the taxes they owe 
plus interest, but the fines are waived. In that context, it's an 
amnesty because the fines and possible jail time are forgiven. In the 
Senate plan, illegals are not only being forgiven for being in the 
country illegally, they are being allowed to stay permanently if they 
choose. The existence of some penalty does not mean it is not an 
amnesty. The normal penalty of deportation is being waived. If simply 
paying a fine and meeting a few other requirements means it's not an 
amnesty, then IRCA was not an amnesty. In fact, no amnesty--whether for 
taxes, parking tickets or illegal immigration--exists because all 
involve some penalty.
    Like IRCA, S2611 Mocks the Law Abiding. One of the reasons there is 
so much resistance to the Senate's amnesty, despite the backing of very 
powerful interest groups, is that it seems unfair to those who play by 
the rules. As in 1986, many observers have pointed out that when you 
reward law breaking, you make legal immigrants who have played by the 
rules, and in some cases have waited many years to come to our country, 
look like fools for taking America's law seriously. This is a terrible 
message to send, not only to legal immigrants, but anyone thinking 
about coming illegally. It is also a terrible message to send to those 
charged with enforcing our immigration law. It is very hard to make a 
case that the best way to restore the rule of law is to reward those 
who have broken it with one of the most prized things on earth--
permanent residence and eventual US citizenship. Another amnesty will 
further erode the morale and effectiveness of the immigration 
bureaucracy and create even more contempt for the rule of law among all 
parties. Such a policy will very likely make illegal immigration worse 
not better.
    Amnesties and Increased Legal Immigration Don't Solve Problem. The 
1986 amnesty legalized 2.7 million illegals. Partly as a result of the 
amnesty and partly because Congress increased legal immigration in 
1990, legal immigration has nearly doubled since the mid-1980s. But we 
have two-and-half-times as many illegals as when IRCA was passed. In 
effect, we've already tried the key provisions of S2611--amnesty plus 
increases in legal immigration. They simply don't work. Amnesty spurs 
more illegal immigration, as does increases in legal immigration. A 
1997 report from the INS found that there was a surge of new illegal 
immigration when the 1986 amnesty went into effect. The increase seems 
to have been the result of family members joining their newly legalized 
relatives. According to the 1997 INS report the number of new illegal 
immigrants arriving increased by 44 percent between 1987 at the start 
of the legalizations and 1989 the height of the legalizations.\1\
---------------------------------------------------------------------------
    \1\ Annual Estimates of the Unauthorized Immigrant Population 
Residing in the United States and Components of Change: 1987 to 1997. 
Robert Warren, Office of Policy and Planning U.S. Immigration and 
Naturalization Service.
---------------------------------------------------------------------------
    One of the most controversial provisions in S2611 is the very large 
increase in legal immigration it creates. The larger the pool of 
immigrants (legal or illegal) in the United States, the greater is the 
pull for more illegal immigration. Illegal aliens often live with legal 
immigrants and it is legal immigrants who often provide information 
about jobs and housing to their relatives and friends back home. Legal 
immigration has been increasing for more than three decades, and 
illegal immigration has been increasing right along with it. The top 
sending countries for legal immigration are by and large the top 
sending countries for illegal immigration. A survey funded by the 
National Institute of Health found that one-third of new legal 
immigrants were former illegal aliens. Legal and illegal immigration 
are closely linked. The past shows that if you increase one you 
increase the other. The Senate bill repeats the mistake of thinking 
amnesty plus increases in legal immigration will solve the problem. It 
did not in the past and there is no reason to think it will this time 
around. Instead, S2611 will almost certainly stimulate more illegal 
immigration.
    Like IRCA, S2611 Puts Amnesty First, Enforcement Second. The Senate 
bill also repeats a key mistake of having the amnesty come before 
enforcement is actually implemented. In the Senate plan, the amnesty is 
in no way connected to or contingent upon enforcement. If this approach 
is allowed, it seems almost certain that like the 1986 amnesty, 
illegals will get their legal status, but the relatively weak 
enforcement provisions in the Senate bill will be implemented slowly if 
at all. The illegals themselves along with very powerful interest 
groups will ensure that the amnesty is implemented. But there is no 
corresponding set of interest groups pushing for enforcement. While 
enforcement is in the broad national interest, and the public certainly 
wants it, these are deffuse political forces and have traditionally not 
been enough to overcome pressure from interest groups who don't want 
the law enforced, particularly the business community and ethnic 
advocacy groups. If we do decide to have an amnesty, it should only 
come after several years of across-the-board enforcement. Otherwise, 
S2611 will be little more than replay of IRCA, except on a larger sale.

                     THE SCALE OF S2611 DWARFS IRCA

    The Amnesty Will Be Huge. In a detailed paper published in June, 
the Center for Immigration Studies estimated the number of people who 
would benefit from the amnesty provisions of S2611.\2\ Based on the 
1986 amnesty, we estimate that slightly over 70 percent (7.4 million) 
of the 10.2 million illegals eligible for the three amnesties in Hagel-
Martinez will come forward and receive amnesty legitimately. That is, 
they will gain legal status allowing them to live and work in the 
United States and eventually apply for permanent residence and then 
citizenship. In addition to the 7.4 million expected to receive amnesty 
legitimately, we estimate that, as in 1986, there will be one 
fraudulent amnesty awarded for every three legitimate ones. This means 
that nearly 2.6 million additional illegals will legalize fraudulently, 
for a total of 9.9 million. The bill will also allow an estimated 4.5 
million spouses and minor children living abroad to immediately join 
their newly legalized relatives, for a total of 14.4 million people who 
will benefit from the bill's amnesty provisions. This is an 
extraordinary level of immigration. Our assumption that the share of 
illegals who come forward will be similar to the share in 1986 may be 
too low because, unlike the last legalization, illegals now know that 
amnesties are real and not a ruse by the government to deport them. 
Moreover, because the border is now more difficult to cross illegally, 
legalization is a more attractive option.
---------------------------------------------------------------------------
    \2\ The entire report entitled, Amnesty Under Hagel-Martinez: An 
Estimate for How Many Will Legalize If S2611 Becomes Law, can be found 
at www.cis.org/articles/2006/back606.pdfhttp.
---------------------------------------------------------------------------
    Of the 14.4 million illegals and their family members who will 
receive amnesty, we estimate that 13.5 million will eventually become 
permanent residents, which means they can stay as along as they wish 
and apply for citizenship. The rest can be expected to die or return 
home before becoming permanent residents. The above estimates do not 
include the bill's very large increases in future legal immigration, 
which is expected to double or triple from one million a year under 
current law.
    The more than 14 million amnesty beneficiaries is equal to all of 
the legal immigration that occurred between 1990 and 2005. It is 
equivalent to the population of 14 states combined.
    As in 1986, there has been almost no discussion in the Senate bill 
about these numbers. This is deeply troubling because the impact of 
immigration on American society is obviously at least partly dependent 
on the number of people allowed in. But the question of whether the 
nation can assimilate numbers this large is seldom if ever even asked. 
The impact on the nation's schools or its physical infrastructure also 
seems to have not been considered. Congress needs to consider these 
questions before undertaking a program with such enormous and broad 
ranging implications for American society.

                  S2611 IS ADMINISTRATIVELY UNWORKABLE

    Fraud Is Common Now, with Amnesty It Will Mushroom. There is near 
consensus among those who work for or study the immigration bureaucracy 
that the system is already overwhelmed with its current workload. As a 
2002 GAO report pointed out, ``the goal of providing immigration 
benefits in a timely manner to those who are legally entitled to them 
may conflict with the goal of preserving the integrity of the legal 
immigration system.'' \3\ Simply put, the system cannot handle all the 
applications for green cards, citizenship, asylum, and other forms of 
immigration ``benefits'' it currently has to process and still make 
sure that the law is followed and only those who are entitled the 
benefits get them. Fraud is still a huge problem at USCIS. A March 2006 
GAO report found that the problem of fraud is an ``ongoing and serious 
problem.'' A detailed analysis of just one visa category, the one for 
religious workers, found that one-third of applications were 
potentially fraudulent.\4\ Given this reality, it is inconceivable that 
the system could hope to process all the amnesty applications and the 
large increases in legal immigration without there being fraud on an 
unprecedented scale.
---------------------------------------------------------------------------
    \3\ Immigration and Benefit Fraud: Focused Approach Is Needed to 
Address Problems, General Accounting Office January 2002. GAO-02-66. 
The entire report is available at http://www.gao.gov/new.items/
d02600r.pdf
    \4\ Immigration Benefits: Additional Controls and a Sanctions 
Strategy Could Enhance DHS's Ability to Control Benefit Fraud, 
Government Accountability Office March 2006. GAO-06-259. The entire 
report is available at http://www.gao.gov/new.items/d06259.pdf
---------------------------------------------------------------------------
    Fraud Was a Huge Problem in IRCA Too. Because of the enormous 
problems at USCIS, we estimate that if the agency is asked to implement 
the S2611, that there will be the same ratio of legitimate to 
fraudulent legalizations as in 1986. This means we can expect 2.6 
million illegal aliens to legalize and be put on a path to permanent 
residence and citizenship who do not qualify for it. As in 1986, fraud 
will include those who do not qualify because they entered after the 
cutoff dates or did not work in agricultural for the required period of 
time but still used the agricultural amnesty, or those who simply 
entered the country to get amnesty. It will also include others who may 
meet the residence requirement for legalization, but otherwise do not 
qualify because of prior bad acts. All these individuals can be 
expected to use deception, false documents, false identity, or other 
forms of fraud. And the overwhelmed bureaucracy can be expected to 
rubber stamp these applications.
    This Time Fraud May Be Even Bigger. Our estimate of 2.6 million 
fraudulent legalizations may in fact be too low. With a much larger 
illegal population today than in 1986, the false document industry is 
much more developed now. Fraudulent applicants can be expected to tap 
into this trade in order to obtain the fake utility bills, rent 
receipts, pay stubs, affidavits and other false documents necessary to 
prove residence or work in agriculture. The very complex and difficult 
to verify requirements of Hagel-Martinez are also an invitation for 
fraud. The new amnesty is not only more complex than the 1986 amnesty, 
it is also much larger with four times as many potential applicants. As 
the workload mushrooms with amnesty, fraud will become even more 
difficult to detect and thus a more tempting option for those who are 
not eligible for legalization.
    As in the Past National Security Will Be Endangered. The 1986 
amnesty clearly facilitated terrorism. Mahmud Abouhalima, a leader of 
the 1993 Trade Center bombing, was legalized as a seasonal agricultural 
worker as part IRCA, even though he drove a cab in New York City. His 
application was approved because the system could little more than 
rubber stamp most applications, given the enormous workload the 1986 
amnesty created. It was only after he was legalized that he was able to 
travel outside of the country, including several trips to the 
Afghanistan/Pakistan border, where he received the terrorist training 
he used in the bombing. Having an illegal alien terrorist in the 
country is certainly a bad situation, but having one with legal status 
is much worse because he can work at any job, easily open a bank 
account, travel to and from the country, receive government issued 
identification, and otherwise be able to operate in the United States 
more easily.
    It is also worth noting that Mohammed Salameh, another conspirator 
in the 1993 World Trade Center bombing, applied for the same amnesty as 
Abouhalima and was denied. But, because then, as now, there is no 
mechanism in place to force people who are denied permanent residency 
to leave the country, he continued to live and work in the U.S. 
illegally and ultimately took part in the 1993 attack. Like IRCA, S2611 
almost certainly will not hinder terrorists' activity, in fact it will 
probably make it easier for terrorist to operate. Given the 
bureaucratic realities, it is simply not reasonable to expect USCIS to 
weed out terrorists and criminals.

         AMNESTY DOES NOT SOLVE LABOR MARKET OR FISCAL PROBLEMS

    Amnesty Does Not Solve Problem of Job Competition. If illegals are 
legalized and are allowed to remain in the country, the poorest and 
least educated American workers would still face job competition from 
millions of former illegal aliens. The primary reason illegal 
immigrants reduce wages or job opportunities for less-educated native-
born Americans or legal immigrants already here is not that they work 
for less, thought that certainly happens. The primary reason they 
create a problem for such Americans is simply their presence in the 
United States. It is basic economics: increase the supply of something, 
in this case less-educated workers, and you reduce its price. The price 
of less-skilled labor is the wages and benefit paid to such workers. 
Letting illegals stay only makes sense if you think the poor are 
overpaid. Yet wages have stagnated or declined for such workers, and 
the share holding a job has deteriorated significantly in recent years. 
There is some evidence that illegal did do better after being 
legalized, but there is no evidence that after the last amnesty native-
born American with little education saw an increase in their wages and 
benefit. In fact, the general trends has been for less-educated 
Americans to do worse in the US labor market. By letting the illegals 
stay the oversupply of less-educated workers remain, so naturally less-
educated natives continue to do poorly in the labor market.
    The trend of less educated Americans doing poorly in the labor 
market has accelerated in recent years. Between 2000 and 2005 the share 
of natives (18 to 64) with only high school degree holding a job 
declined from 53 to 48 percent, and the share with only a high school 
degree and no additional schooling declined from 75 to 70 percent. How 
does letting in even more less-educated workers through the new H2C 
program in S2611 help this problem? There are 65 million native-born 
Americans between the ages of 18 and 64 who have no education beyond 
high school, 23 million of whom are either unemployed or not even in 
the labor market, which means they are not even looking for a job. 
These are precisely the kind of individuals who work in construction, 
food service and building cleaning and grounds maintenance occupations, 
which is where illegal are overwhelmingly concentrated. The vast 
majority of workers who do this kind of work are natives. Thus to 
suggest that Americans are not interested in such jobs is ridiculous. 
Allowing illegals as guest workers, green card holders or illegal 
aliens means lower wages and job opportunities for less-educated 
Americans. And as in 1986, unemployment, non-work, and wages of workers 
at the bottom of the job market show there is no shortage of less-
educated workers. If there were, wages and employment should be rising 
fast, but that simply is not happening.\5\
---------------------------------------------------------------------------
    \5\ For a detailed discussion of labor market problems of less-
educated Americans see Dropping Out: Immigrant Entry and Native Exit 
From the Labor Market, 2000-2005 at http://www.cis.org/articles/2006/
back206.pdf.
---------------------------------------------------------------------------
    Amnesty Does Not Solve Costs to Taxpayers. The Senate plan also 
does not solve one the other big problems associated with illegal 
immigrants--the cost to tax payers. Illegal aliens create significant 
costs for taxpayers mainly because they are unskilled, not because they 
are illegal. At least 60 percent lack a high school degree and another 
20 percent have only a high education with no additional schooling. 
Such persons pay relatively little in taxes regardless of legal status 
because they earn so little in the modern American economy. Letting 
them stay means the costs stay. A Center for Immigration Studies report 
found that in just the first ten years after IRCA passed, the 
difference between the taxes the legalized illegals paid and the costs 
they created was a negative $79 billion borne by American taxpayers. 
The National Research Council in 1997 report entitled, The New 
Americans, estimated that the average immigrant without a high school 
diploma will use $89,000 more in services than he pays in taxes during 
his lifetime and an immigrant with only a high school degree will 
create a net fiscal drain of $31,000. My research indicates that if we 
legalized illegals and they began to pay taxes and use services like 
legal immigrants with the same level of education, the fiscal costs at 
just the federal level would triple from about $10 billion a year to 
nearly $30 billion.\6\ Unskilled illegal aliens are costly, but 
unskilled legal immigrants, which is what the illegals would become, 
cost even more because they can more easily access social programs. If 
we legalize illegal aliens, the fiscal costs are guaranteed to explode. 
This is what happened with IRCA and it would surely happen again.
---------------------------------------------------------------------------
    \6\ See The High Cost of Cheap Labor: Illegal Immigration and the 
Federal Budget at http://www.cis.org/articles/2004/fiscal.html.
---------------------------------------------------------------------------
                    MOST AMERICANS DON'T WANT S2611

    S2611 Defies Public Opinion. In a democratic republic, public 
policy should in general reflect the views of the people. But, S2611 
clearly does not do that. Using neutral language a Zogby poll of likely 
voters conducted for the Center for Immigration Studies found that in 
general Americans want less not more immigration. Only 26 percent said 
immigrants were assimilating fine and that immigration should continue 
at current levels, compared to 67 percent who said immigration should 
be reduced so we can assimilate those already here.\7\ But the Senate 
bill does precisely the opposite of what most Americans want. The 
Senate's plan would increase legal immigration from roughly 1 million a 
year to perhaps 2 million or even more. Yet only 2 percent of Americans 
in the same Zogby poll respond that they believe that current 
immigration is too low. This is very similar to what happened in the 
late 1980s with the IRCA amnesty and the large increases in legal 
immigration passed by Congress in 1990. The public wanted the law 
enforced and less legal immigration. At the behest of interest groups, 
Congress responded by legalizing illegal aliens and increasing legal 
immigration.
---------------------------------------------------------------------------
    \7\ To see the result of the Zogby poll from April of this year, 
including question wording, go to www.cis.org/articles/2006/
2006poll.html.
---------------------------------------------------------------------------
    While the public may not keep track of the details of immigration 
policy, Americans generally know we have already tried amnesty and it 
has not worked. This is one reason the public is so cynical about 
immigration. Defenders of S2611 often argue that we have tried to 
enforce the law but we simply can not do it because we are not letting 
enough people legally. But when asked this very question by Zogby, 71 
percent of Americans felt that enforcement had failed because our 
efforts had been ``grossly inadequate,'' while only 19 percent felt we 
had made a ``real effort'' to enforce our laws and the reason we failed 
was because we are not letting in enough people legally. Most Americans 
also don't buy the argument that we are desperately short of less-
skilled workers. When asked, 77 percent said there are plenty of 
Americans to fill low-wage jobs if employers pay more and treat workers 
better; just 15 percent said there are not enough Americans for such 
jobs. Finally, 73 percent of the public said they had little or no 
confidence in the ability of the government to screen these additional 
applicants to weed out terrorists and criminals that would result if 
S2611 became law.
    Given deep public opposite to S2611, if it does become law, it can 
only make the American people more cynical and dissatisfied with our 
immigration system. Unfortunately, US immigration policy for many years 
now has been out of step with the desire of most Americans for less 
legal immigration and greater efforts to enforce immigration laws. The 
Senate's plan, like most changes in immigration law in the last four 
decades, would continue that trend with the same result--growing public 
anger.

                               CONCLUSION

    It is often said that history repeats itself. If S2611 become law, 
that will certainly be true. We would again make the mistake of 
thinking that amnesty for illegals and increased legal immigration will 
solve the problem. It didn't in 1986 and 1990 and it almost certainly 
will not do so now. Legal immigration has almost doubled since the mid-
1980s, but illegal immigration has increased right allow with it. In 
fact, rewarding illegal behavior and increasing legal immigration, as 
is the past, will only spur more illegal immigration. Like the 1986 
amnesty, the immigration service will not be able to handle the crush 
of work, with the result that there will again be massive fraud. Only 
this time, because the amnesty is so much larger, fraud will be larger, 
making it all the more likely that terrorists and criminals will 
receive amnesty. Moreover, S2611 will not solve the problem of job 
competition for less-educated or the fiscal burden on taxpayers because 
illegals will be allowed to stay. Finally, because S2611 is so out of 
step with public opinion, if it were ever implemented, it would only 
add to the frustration and dissatisfaction of the American people. Of 
course, history does not have to repeat itself. Congress can pass 
sensible legislation that enforces the law and responds to concerns of 
the American people.

    Mr. Hostettler. Thank you, Dr. Camarota.
    Dr. Edwards.

    TESTIMONY OF JAMES EDWARDS, JR., ADJUNCT FELLOW, HUDSON 
                           INSTITUTE

    Mr. Edwards. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me to be here today.
    The Senate bill would in fact repeat the errors of the past 
and have the same harmful consequences, only worse. I will talk 
today about two things: the 1986 amnesty and its similarities 
in the Senate bill, and the connection between legal and 
illegal immigration.
    First, in 1986 IRCA passed, and now we see resurrected IRCA 
in the Senate bill. The IRCA included border enforcement and 
IRCA authorized more border patrol and grounds for deportation.
    Number two, employer sanctions. IRCA made it unlawful to 
knowingly hire illegal aliens and it established the I-9 
system.
    Three, mass legalization. There were three classes of 
illegal aliens who were dealt with according to their length of 
illegal residency here. Those here since 1972 or before 1972 
got immediate amnesty. Those here from 1982 forward, or by 
1982, had to pay a nominal fee for a temporary visa, then they 
could get a green card after 1\1/2\ years, and they had to take 
minimal English and civics classes.
    There were special agriculture workers, or SAWs, who 
claimed at least 90 days of farm work in 1986, or in the 
previous 3 years. They could become LPRs if they paid the 
nominal fee.
    The Senate amnesty resembles IRCA in these ways. S. 2611 
has fig-leaf border enforcement and employer sanctions. Like 
IRCA, it is long on promises and full of policy booby-traps to 
ensure its failure.
    S. 2611 is even worse than IRCA, with its mega-increases in 
legal immigration levels that will overwhelm America, break the 
treasury, flood the immigration bureaucracy, and ensure chain 
migration that doubles or triples immigration levels for the 
next two decades. It's guest worker--program is mainly for 
laundering the status of millions of illegals.
    S. 2611 has at least five amnesties in it: one, illegal 
aliens in the U.S. for at least 5 years get an instant green 
card; two, illegal aliens here for 2 to 5 years get amnesty on 
the installment plan, in three steps. Oh, and plus a 2-year tax 
amnesty. I would like one. Three, an Agjobs amnesty. Four, a 
DREAM Act amnesty. Five, one for certain asylum claimants. Oh, 
and the big one, the mass amnesty of the illegitimate employers 
who have been hiring these illegals.
    With IRCA, the employer sanctions and border enforcement 
legs, quote-unquote, failed because they were poorly or 
inadequately designed, not at all or poorly implemented, 
underfunded, and undermined from the start by political 
pressure. Only the amnesty, quote-unquote, worked.
    Three million people were legalized, and IRCA thus spurred 
massive illegal immigration and chain migration. IRCA, 
especially the SAW amnesty, was fraud-ridden. Rubber-stamping 
became the rule. INS approved over 94 percent of amnesty 
applications and over 93 percent of SAW applications.
    Second, legal and illegal immigration are two sides of the 
same coin. As legal immigration has risen, so has illegal 
immigration. Since IRCA, an illegal population of 2 million in 
1988 has become 10 million in 2005. Illegal aliens made 21 
percent of the foreign-born in 1980. Today, it is 28 percent.
    The top source countries of the legal immigrants tend to be 
the top source countries of illegal aliens. Mexico is the 
largest source country of both legal and illegal aliens, with 
Mexicans as 30 percent of the foreign-born. Over half of 
Mexicans in the U.S. are illegal aliens.
    If legal immigration rose as S. 2611 proposes, illegal 
immigration would spike as well. Chain migration, the ability 
to sponsor distant family members, leads to a third of LPRs 
first living here illegally from 5 to 8 years before their 
green cards come through. Two-thirds of Mexican LPRs first 
lived here unlawfully. The visa preference system over-promises 
and sets unrealistic expectations. The reality for most is 
backlogs and waiting lists.
    In conclusion, the lessons from the IRCA disaster show that 
the Senate amnesty would repeat this history. H.R. 4437 
comparatively is much more sensible.
    Thank you.
    [The prepared statement of Mr. Edwards follows:]

              Prepared Statement of James R. Edwards, Jr.

    Mr. Chairman and members of the subcommittee, thank you for 
inviting me to testify today regarding the mass amnesty in the Senate 
bill, S. 2611.
    Comparing the experience of 1986's supposed ``one-time only'' 
legalization with the Senate-passed amnesty and its likely consequences 
should lead dispassionate observers to conclude that S. 2611 would 
repeat past errors--only now, we should have learned better. The Senate 
amnesty would condemn the United States to the same harmful 
consequences that IRCA caused. Only now, its effects would be far, far 
worse.
    Because spokesmen from the current administration and other 
advocates of out-of-control immigration perform all kinds of linguistic 
gymnastics and semantic magic tricks to deny that amnesty proposals 
such as the Reid-Kennedy-McCain-Hagel amnesty are amnesties, allow me 
to offer a common-sense, conventional definition of ``amnesty.'' 
Amnesty is the government forgiving all people or certain classes of 
people for certain unlawful acts they are guilty of. Black's Law 
Dictionary explicitly cites the 1986 IRCA as an example of amnesty. And 
by a normal person's reasonable judgment, the legalization provisions 
in S. 2611 and similar arrangements in other legislation can only be 
described as amnesty. That is so even with various conditions placed on 
the illegal aliens who would benefit, because most amnesties apply 
certain conditions for amnesty.
    As a rule, amnesties should be employed sparingly and carefully. 
They indeed do affront the rule of law because amnesty is an act 
whereby the civil government overlooks lawbreaking. Amnesty in effect 
rewards lawbreakers for their lawbreaking. Amnesty lets off certain 
lawbreakers.
    While individuals should forgive others their debts on the personal 
level, the principle doesn't carry over well to the government level. 
The job of the government is to uphold the law. That is how order is 
maintained in civil society. If amnesty is liberally or frequently or 
imprudently applied, then it undermines the principles of ordered 
liberty the Founders sought to embed in our system of government. In 
the immigration context, granting illegal aliens amnesty diminishes the 
honorable conduct of the many legal immigrants who abided by the law 
and persisted through the daunting process; amnesty of illegal aliens 
rewards their dishonorable, disorderly, lawless conduct in a highly 
public manner that effectively insults legal immigrants.
    Today, I will focus my remarks on two areas: the 1986 IRCA amnesty 
and its similarities in S. 2611, and the connections between legal and 
illegal immigration.

            IRCA, ITS MANY FLAWS, AND THE THREAT OF A REPEAT

    In 1986, Congress struck a ``grand bargain'' on immigration--the 
Immigration Reform and Control Act, or IRCA. The keys to locking the 
``back door'' to illegal immigration were supposed to be securing the 
border and demagnetizing the ``jobs magnet:'' employer sanctions.
    The elements of IRCA are resurrected in the Senate bill. IRCA 
included:

        <bullet>  Border enforcement: IRCA authorized more Border 
        Patrol and deportations (but ended warrantless INS farm 
        sweeps).

        <bullet>  Employer sanctions: IRCA made it unlawful to 
        ``knowingly'' hire illegal aliens; it established the visual-
        check, ID-based I-9 system (and also set up a regime to 
        dissuade conscientious employers).

        <bullet>  Mass legalization: Three classes of illegal aliens 
        were dealt with according to length of unlawful U.S. residency. 
        Those here by 1972 got immediate amnesty of Lawful Permanent 
        Residence. Those here since 1982 had to pay a nominal fee for a 
        temporary visa, then could get a Green Card after a year and a 
        half if they had minimal knowledge of English and U.S. civics. 
        Special agricultural workers, or SAWs, claimed at least 90 
        days' farm work in 1986 or the previous three years to get 
        amnesty; they became LPRs if they paid the nominal fee, the 
        timing depending on their claimed farm work.

    We observed in The Congressional Politics of Immigration Reform 
about IRCA's eventual consequences: ``At the time, few . . . accurately 
forecast the enormous demand that would be stimulated by the 
legalization program. . . . Amnesty ultimately drove annual legal 
immigration levels to their peak in the 1980s, dramatically distorted 
historical immigration patterns, and contributed to the groundswell of 
opposition to legal and illegal immigration in the 1990s.''
    The contours of the Senate amnesty bill resemble IRCA's. S. 2611, 
which would supposedly boost border enforcement and employer sanctions, 
mixes this sugar with the amnesty poison (though Reid-Kennedy includes 
many poison pills in the ``enforcement'' and ``sanctions'' sections 
that will guarantee the failure of those provisions, such as tying 
local law enforcement's hands and requiring federal, state, and local 
governments effectively to get Mexico's permission before taking any 
enforcement measures).
    S. 2611, like IRCA, is long on promises, chock full of policy booby 
traps to ensure failure, and will be short on results other than a 
flood of foreign-born. S. 2611 is even worse than IRCA in that it 
includes mega-increases in legal immigration levels that will overwhelm 
America, break the treasury, flood the immigration bureaucracy, and 
ensure ``chain migration'' that doubles or triples immigration levels 
for the next two decades. Its ``guestworker'' program is nothing more 
than a means to launder the status of millions of foreign lawbreakers. 
There is nothing temporary about their ``guest'' status; they are 
assuredly here to stay, because ``guestworkers'' may bring their 
families with them for the duration of their H-2C visas and status 
adjustment (many having been present already).
    NumbersUSA's Rosemary Jenks has calculated that S. 2611 contains at 
least five amnesties. One, illegal aliens in the U.S. for at least five 
years get an instant Green Card. Two, illegal aliens present for two to 
five years get amnesty on the installment plan--three steps (plus a 
two-year tax amnesty). Three, there is an AGJOBS-type, two-step amnesty 
for those who purport to be part-time farm workers (alleging 21.6 weeks 
of work over two years). Four, a DREAM Act-type amnesty legalizes those 
claiming to have been here five years and to have entered illegally 
while under age 16. Five, those claiming to be a persecuted religious 
minority with an asylum claim pending on May 1, 2003, get immediate 
amnesty. And then there is mass amnesty for the illegitimate employers 
who hired these illegal aliens, privatized the benefits, and socialized 
their costs.
    The employer sanctions and border enforcement legs of IRCA 
``failed''--which is to say, they were poorly or inadequately designed, 
not at all or poorly implemented, and were undermined by political 
pressure from the beginning. Only the amnesty ``worked.'' That is, a 
lot of foreign lawbreakers got full amnesty. And IRCA spurred massive 
illegal immigration and ``chain migration.''
    In 1980, there were an estimated 3 million illegal aliens in the 
United States. By IRCA, after six years of dangling the amnesty carrot 
as Congress debated, we had 5 million illegal aliens. IRCA legalized 3 
million: 65,000 had been here since 1972; 1.6 million had been here 
since 1982; 1.1 million were SAWs. Some 2 million were Mexicans. IRCA 
imposed the equivalent of processing five years' worth of immigrants in 
just a couple of years (legal immigration in the 1980s ran about 
700,000 a year).
    IRCA, especially the SAW amnesty, was fraud-ridden. The INS 
estimated that there were 400,000 SAWs nationwide; 1.1 million were 
legalized. California was said to have fewer than 100,000 illegal SAWs, 
but 700,000 applied from that state alone. Most SAW applications were 
approved, despite suspicion of widespread fraud.
    Rubber-stamping became the rule. Scrutiny and due diligence were 
out the door, as ``INS essentially threw up its hands and decided not 
to spend the time and energy needed to sort out the fraudulent SAW 
applications,'' former Labor Department official David North said. INS 
approved 94.4 percent of regular amnesty applications and 93.5 percent 
of SAW applications.
    IRCA fraud and amnesty benefited the Islamofascist cause. Mahmud 
Abouhalima, an Egyptian illegal alien, obtained amnesty as a SAW. This 
New York cab driver, who never worked on a farm, used his legalization 
to travel to Afghanistan for terrorist training. He was part of the 
first World Trade Center bombing plot. Given the internal corruption, 
mismanagement, and abuse within the Bureau of Citizenship and 
Immigration Services that has recently come to light by patriotic 
whistleblowers, the prospects of criminals and terrorists getting 
legalized is even more likely today.
    Amnesty, premised on and promised as a once-only thing, encouraged 
and facilitated more illegal immigration. The 2 million residual 
illegal alien population of 1988 grew to 3.5 million in 1990--4 million 
in 1992--5 million in 1996 (i.e., replenished in a decade)--7 million 
in 2000--about 10 million in 2005.
    Amnesty begat amnesty. IRCA was the first immigration amnesty in 
this nation, and now we have had seven since 1986. These include the 
``rolling amnesty'' of Section 245(i) in 1994, 1997, and 2000 
(responsible for legalizing at least 1.5 million illegal aliens), the 
1997 Central American-specific amnesty (NACARA, legalizing about one 
million), the 1998 Haitian-specific amnesty (of 125,000 illegal 
aliens), and the 2000 amnesty of illegal aliens claiming they deserved 
legalization under IRCA (benefiting about 400,000 illegal aliens).

             THE UGLY TRUTH OF THE LEGAL-ILLEGAL CONNECTION

    An underlying premise of the Hesburgh Commission's recommendations, 
of IRCA, and of many Senators today is if you increase legal 
immigration, you'll reduce illegal immigration. But, in fact, legal and 
illegal immigration are two sides of the same coin. If legal 
immigration rose as S. 2611 proposes, illegal immigration would spike, 
too.
    As legal immigration has risen markedly since 1965, illegal 
immigration has risen with it. Illegal aliens comprised 21 percent of 
the foreign-born population in 1980. Today, they're 28 percent. The top 
source countries of legal immigrants tend to be the top source 
countries of illegal aliens--Mexico, El Salvador, China, Dominican 
Republic, the Philippines. This is no coincidence.
    Mexico is the largest source of both legal and illegal aliens. In 
2000, Mexicans were 30 percent of the foreign-born. Over half of 
Mexicans in the U.S. were illegal aliens. Mexicans make up three times 
the proportion of the next three source countries combined: China, the 
Philippines, India.
    Because of ``chain migration''--the ability of an initial immigrant 
to sponsor distant family members for immigrant visas (e.g., adult 
siblings, adult married children), ``new'' immigrants aren't always 
new. The New Immigrant Survey unveiled that a third of LPRs had lived 
here illegally--for 5 to 8 years--before their Green Card came through. 
Two-thirds of Mexicans had first lived here unlawfully. This survey 
also found that the tourist visa is the most abused temporary visa by 
one-time-illegal, now-legal immigrants.
    The existence of ``chain migration'' visa categories far beyond the 
reunification of spouses and of parents with their minor children, as 
well as full eligibility, to date, of amnestied aliens to naturalize 
and to sponsor additional immigrants, has swelled the numbers of 
immigrants (legal and illegal). Amnesties have exacerbated this 
exorbitant wave. These same phenomena have given would-be immigrants 
unrealistic expectations and an ``entitlement mentality'' toward 
immigration. Yet the reality, depending on country of origin and visa 
sought, is backlogs and waiting lists. These necessary delays, plus 
opportunities to plant roots via ``anchor babies,'' INA and process 
loopholes, and visa abuse, increase the ties of this integral 
connection where high legal immigration fosters high illegal 
immigration.
    In conclusion, what are the lessons we should draw from IRCA and 
from a realistic view of immigration?
    We need to pursue enforcement first. Our strategy should be 
attrition through systematic, faithful, routinized enforcement. We need 
a border fence, vastly expanded expedited removal, meaningful, rigorous 
employer sanctions starting with the worst offenders, mandatory 
electronic employment verification of all workers, and empowering state 
and local law enforcement with the federal cooperation they need. We 
must cut legal immigration to more manageable levels. We should 
eliminate the ``chain migration'' categories of extended family and the 
visa lottery. Family or employer sponsors should bear greater 
responsibility for the immigrants they bring in--health insurance, life 
and disability insurance, for instance.
    Given the IRCA disaster, the Reid-Kennedy amnesty is out of touch 
with reality and lacks common sense. By contrast, H.R. 4437 takes a far 
more sensible approach.

    Mr. Hostettler. Thank you, Dr. Edwards.
    The Subcommittee will now turn to a round of questions.
    Dr. Edwards, let me ask you, which bill, the House bill or 
the Senate bill, which of those is more in keeping with the 
sentiments, the recommendations of the 1981 Commission on 
Immigration Reform that I mentioned earlier, with regard to 
enforcement and legalization?
    Mr. Edwards. Probably the House bill because the Hesburgh 
commission recommended legalization, yes, but it did so as a 
means of sort of mopping up. It said, first, you have to secure 
the borders and you have to have employer sanctions. That has 
to be worked out and in force, and then after that is done, 
then see what is left of the then 3 million or so illegal 
aliens, and have a way to legalize their status. So it was 
viewed as there is the enforcement side first, and then only 
after that is fully ensconced would you go the other route.
    Mr. Hostettler. So as you understand the House approach, 
the House approach does not disclose at a future time 
reexamination of the immigration issue.
    Mr. Edwards. Correct. I think you would have to say in the 
back of your mind there is going to be some residual illegal 
population, and that at some later time, 10 years or so down 
the road, then you would say, okay, if we have gotten employer 
sanctions, and the point that Mr. Berman made precisely, the 
employer verification, employment verification system fully 
enacted, then you can say, and all the enforcement aspects of 
4437, then you would say, okay, now we have a smaller problem.
    But all of this has to be premised, as the House bill is, 
on attrition. You have to drive down the incentive, reverse the 
incentive for in-flow. You have to drive down the incentive to 
stay here unlawfully and make it more attractive to leave.
    Mr. Hostettler. Very good.
    Mrs. Schlafly, if the ``comprehensive'' approach of the 
Senate is taken, do you believe that we will enforce vigorously 
the law and then allow for the mop up that was suggested in the 
Hesburgh commission?
    Mrs. Schlafly. Mr. Chairman, no, I don't believe it. I 
think ``comprehensive'' has become a word that is as negative 
as ``amnesty'' because it is really a code word for packaging 
it all together. And like Simpson-Mazzoli, we believe that we 
will get the amnesty and the guest worker, but we do not 
believe that border security will be enforced. I am not sure 
that we see that there is any will to enforce it.
    This is why I think the public officials who urge 
comprehensive just don't have any credibility. The American 
people think we are being lied to. We have been down that trail 
before.
    Mr. Hostettler. Dr. Camarota, the notion of employer 
sanctions being vigorously enforced after comprehensive reform 
is put in place, employer sanctions are already in place, are 
they not?
    Mr. Camarota. Yes, obviously you have a regime in place, 
but it is not funded. It is not enforced. As one of the Members 
correctly pointed out, only three employers were fined in 2004 
for hiring illegals.
    Mr. Hostettler. So going back to the issue of integrity, 
does it seem to you that with the comprehensive reform and the 
experience that we had in 1986, that there is going to be, if 
it is on the books today, if it is illegal today, what makes it 
more illegal after the comprehensive reform in the Senate is 
put in place?
    Mr. Camarota. I think that is an excellent question. The 
bottom line is it is incumbent among people who want to grant 
amnesty or legalize, whatever term you like, to people here 
illegally, to first demonstrate, Republicans and Democrats who 
want that, to first demonstrate they are serious about 
enforcement. Until they do that, we should not take them 
seriously because the past has shown both parties have just not 
been willing to enforce the law.
    Mr. Hostettler. And then finally, Dr. Camarota, in terms of 
the workforce, and you mentioned this briefly, what American 
citizen workers are most vulnerable if we drastically increase 
the number of immigrants to the U.S., especially under the 
Senate provision?
    Mr. Camarota. Phyllis mentioned one group. There are about 
16 million native-born Americans 18 to 64 who don't have a high 
school degree. They face a lot of job competition. There are 
several more legal immigrants in the United States, about 3 or 
4 million, who don't have a high school education, who face the 
competition. And then there is also a lot of young natives.
    One of the most troubling trends in the U.S. labor market 
that has been going on for the last 7 or 8 years is the decline 
in the number of young, men in particular but also women, who 
only have a high school degree, but they are in their 20's. 
Those people are leaving the labor force in droves. They don't 
seem to be attending school.
    So that is the other group, high school dropouts and young 
natives with only a high school degree. It has been happening 
for all racial groups. Native-born Americans who don't have a 
lot of education who are young, are really taking it on the 
chin.
    That is very strong prima facie evidence that there is no 
shortage. Their wages are down. If their wages weren't down, if 
their employment wasn't down, then you might have a case that 
there is a shortage, we desperately need lots of unskilled 
workers. But all the available evidence suggests that they are 
taking it on the chin in the labor market. So to flood the 
unskilled labor market simply represents a kind of callous 
disregard for Americans at the bottom end of the labor market.
    Mr. Hostettler. Thank you.
    The chair recognizes the gentlelady from Texas for 5 
minutes for questions.
    Ms. Jackson Lee. I thank the Chairman very much.
    Dr. Camarota, I may agree with you that the Republicans 
have not had the will, and to some extent as you have 
mentioned, it has been bipartisan in enforcement. I would argue 
that we could compare rather credibly the dollars spent on 
enforcement under the Clinton administration and the lack of 
dollars spent on enforcement under this present Administration.
    What I would say to you, however, is what my colleagues 
have said over and over again, that is why we need to be in 
conference, taking the expertise that you have offered and some 
of our other witnesses, and you know you have been before this 
Committee, and really seriously address some of these concerns.
    I want to say to my colleagues, and certainly to the 
witnesses, the Senate bill has an employer verification 
program. It is a pilot program. Maybe in conference it could be 
strengthened, but they were wise enough to include that.
    Might I just quickly read into the record so that we can 
disabuse ourselves of the terminology ``amnesty'' and realize 
that there are 10 provisions that the Senate bill has in terms 
of those who would seek some sort of status. I might remind my 
colleagues as well in order to secure America, you must know 
who is there. They must qualify and pay over $3,000 in fines. 
They must pay their taxes. They must learn English, history and 
Government of the U.S. They must undergo criminal and security 
screens.
    They must get a medical examination. They must register 
with the military Selective Service. They must establish or 
continue presence in the United States. They must provide 
evidence of past employment in the U.S. They must earn legal 
status by continuing to work for at least 6 years. They must go 
back to the line. That, in my definition, is paying a price.
    Let me also cite some of the organizations that want 
comprehensive immigration reform. I think many of these are 
friends of our leadership, the U.S. Chamber of Commerce, U.S. 
Conference of Catholic Bishops, certainly the National Council 
of La Raza, Asian American Justice Center, and Service 
Employers International Union who represent a cross-section of 
America. I might say, the numbers say that Americans want 
comprehensive immigration reform.
    Before I ask a question, I do think these points are 
important to note because my good friend has returned who 
offered to indict some of the statements made by those of us on 
this side of the aisle. I welcome the evidence of members of 
their history of immigrant past, but I would take issue to 
suggest that immigrants today don't work hard, that we are 
going to compare them with immigrants of the past and suggest 
that immigrants from Poland, immigrants from Haiti, immigrants 
from Costa Rica, immigrants from El Salvador, immigrants from 
England who come today do not work hard, and that immigrants 
who may be undocumented don't work hard. I hope that my 
colleague would clarify such an indicting, inappropriate and 
unfortunate statement.
    I would also suggest that there are many of us who are more 
than multi-tasked. We are sympathetic. And when 25,000 
Americans can't get out of Lebanon from the most powerful 
nation in the world, I think that is a priority issue, and Mr. 
Reyes, I would prefer you being at the intelligence hearing so 
that you could address the crisis that is going on right now, 
because frankly the families of my constituents who are over in 
Lebanon are wondering why America, why France has a ship and 
why someone else has a ship and we don't. So I hope that we can 
multi-task, but I hope we can save lives.
    And lastly before I ask a question, isn't it interesting 
that we talk about the dumbing-down of wages. I think that is 
an important point. Since 1997, we haven't been able to get 
this Republican Congress after George Bush took over and 
President Clinton, of course, if out of office, to raise the 
minimum wage. We have been trying to get an amendment on the 
floor of the House every single week, and we have been denied 
the right to raise the minimum wage, which is in fact the 
lowest in 50 years.
    So, Mr. Reyes, could you give me a sense in your 25 years, 
but now being in this Congress, how often you have put before 
this Congress the need for increasing the resources for border 
security officers, training, civil service changes, and giving 
them the power bolts, the goggles? How many times we have gone 
to the border with you and others?
    We were just back at the border just recently on a hearing, 
that we have not given them the resources to deal with this 
situation that would require and give to the American people 
the comfort.
    And does the Senate bill lead us in that direction by 
giving us comprehensive immigration reform that is both 
benefit, but more importantly, border security?
    Mr. Reyes. I thank my colleague for the question.
    First of all, it is extremely frustrating when the title of 
the hearing is ``Repeating the Mistakes of the Past.'' We 
continue to repeat the mistakes. There are countless times 
where I have offered amendments.
    I have offered a motion to substitute on making a stronger 
effort at border enforcement. Again, post-9/11, the things that 
we haven't done are unconscionable. It is no wonder that the 
American people don't believe Congress. It is no wonder that 
the president's rating, as low as they have been, our ratings 
are much lower.
    We do a lot of talking, but we do very little in terms of 
action. We don't fund not only the border patrol, but we don't 
fund the marshal service. We don't fund assistant U.S. 
attorneys. We have agencies whose vehicles are in excess of 
140,000 miles. What we ought to be doing is being, as a number 
of you have stated, we ought to be in conference. We ought to 
be working on those issues. It ought to be comprehensive.
    ``Comprehensive'' doesn't have to be a dirty word. 
``Comprehensive'' means having a strategy, having the long-term 
vision and the commitment that we are going to right all these 
things that affect our national security. That means border 
security. That means the legal system. That means identifying 
those people that are here already. Only then will we be able 
to sort through and find out who is here and for what purposes 
and who can be harmful to this country.
    We have a lot of work to do, and we are wasting time with 
hearings like this, in my opinion. We are wasting time with 
hearings like this. I hope, if nothing else comes out of these 
hearings, maybe it is an unintended consequence, but the 
American people are going to pay attention, sit up and say, 
yes, that is right; we haven't been doing a good job. And by 
the way, who has been in charge and who has had the agenda and 
why are we less secure today than we were pre-9/11?
    I think we all have a role to play.
    Mr. Hostettler. The gentlelady's time has expired.
    Ms. Jackson Lee. An additional 15 seconds, Mr. Chairman, I 
ask unanimous consent.
    Mr. Hostettler. Fifteen seconds. The chair will recognize 
the gentlelady for 15 seconds.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Hostettler. As the chair will add to the record, we 
appreciate the gentleman from Texas's testimony today. The 
gentleman from Texas was a witness that was called by the 
minority, and we would not have imposed upon the gentleman's 
time had we known the importance of the hearings and the lack 
of the gentleman's belief in the importance of this hearing.
    So I would simply add to the record that the gentlelady 
from Texas called the gentleman from Texas, as we are welcome 
and we applaud and appreciate the gentleman's testimony, but we 
would just like to add for the record that, well, many of us 
believe that these hearings are not a waste of time; that with 
those with the opinion that they are a waste of time, schedules 
probably should have been better coordinated, given those 
opinions.
    So the gentlelady is recognized for 15 seconds.
    Ms. Jackson Lee. Thank you.
    With that, Mr. Chairman, I am grateful for the sacrifice 
Representative Reyes has now made, recognizing that the 
minority cannot control schedules.
    I just want to say that it is reported that, and generally 
agreed that 50 to 60 percent of illegal immigrants nationwide 
work for employers who withhold income taxes, Social Security 
and Medicare payments. So I hope that we realize that we need 
to go to conference so we can address these concerns, rather 
than throwing stones into the darkness.
    I yield back. Thank you.
    Mr. Hostettler. The chair recognizes the gentleman from 
Texas for 5 minutes for questions.
    Mr. Gohmert. Thank you, Mr. Chairman.
    First, my colleague from Texas said I had indicting 
statements, so I sure need to clarify. No, I don't need to 
clarify, but I sure need to address it. I do not apologize for 
the fact that my great-grandfather came, worked his tail off, 
learned English and lived the American dream. I will not 
apologize for that.
    I never have said immigrants today don't work as hard, 
because that plays right into the other issue that was raised 
by my colleague about the minimum wage. I talk to my friends 
back in east Texas and they tell me that the immigrants they 
have working for them, they are far too good and far too hard a 
workers to pay them the minimum wage. Some of them are making 
about $20 an hour. They are the hardest working, most wonderful 
workers, I have been told by some friends in Henderson and 
Tyler and Longview and around there. Those are good folks.
    So to say that I am out here saying immigrants don't work 
hard today sure misses the boat. We need immigration. We need 
it legal. We do need to reform the immigration services, all of 
them. But again, I come back, you know, for this to have been a 
mock hearing, there sure is a lot being said at this hearing. 
If it were a mock hearing, I would think that we would say a 
lot less than we are saying. So apparently it is not as mock as 
originally thought.
    Ms. Jackson Lee. Will the gentleman yield?
    Mr. Gohmert. Well, you took your shots at me without 
yielding to me, so I will let you take your shots.
    Ms. Jackson Lee. I didn't hear you ask to be yielded to.
    Mr. Gohmert. I do not yield. I do not yield. When you 
indict me, then I will respond and not yield so I can be 
indicted some more.
    Now, listen, Representative Reyes, you have been a 
champion. I have only been here 1\1/2\ years. You have been 
fighting this battle, and it is something that I mentioned to 
the president before, that some people think this is a partisan 
issue, and yet we have heard from every sheriff come up here 
and testify, more than once, from the border counties of Texas. 
They are Republican, but there are at least as many Democrats, 
I would think, and they are begging for help.
    Some say that it is a racial issue, and yet we have had as 
many Hispanics from the border counties come forward and say, 
we need help. So I am embarrassed that we have not done more. I 
am for using all the resources we have, and I appreciate your 
efforts that you have been battling for longer than I have been 
here, back when I was a judge, trying to deal with efforts from 
a judicial standpoint.
    I know you have given your statement. You have made it in 
writing. But in trying to keep this from being too partisan and 
taking shots in areas where I disagree with my president 
anyway, but what do you see that we can do immediately, 
quickly, and best to help the sheriffs on the border, just in a 
nutshell?
    Mr. Reyes. Well, first of all, thank you for raising that 
issue, because I think it is vitally important.
    When there is a void in terms of enforcement or anything 
else, somebody is willing to jump in and fill that void. 
However, when we are talking, and remember I represent a border 
district. I enforced Federal immigration law for 26\1/2\ years.
    I can tell you unequivocally that money is better spent on 
the professionals that have that responsibility, which is the 
United States Border Patrol. The Sheriff's Coalition has been 
up here, and believe me, I sympathize in the fact that they 
need money. Around the country, everybody needs money. If you 
will survey the U.S. marshals, they need positions and they 
need money for vehicles and for infrastructure support. The 
U.S. attorneys, everybody needs money and everybody should be 
supported. The reality is we have to prioritize.
    That is why I think it is important that we do so, but in 
prioritizing that we remember that it is never an easy fix to 
try to give enforcement of immigration that authority to the 
sheriffs or the police departments. We recently in my district 
had a number of issues where the sheriffs department was 
setting up roadblocks, and one of the questions they were 
asking dealt with immigration. They do not have that authority.
    We also heard a number of complaints, both in my office and 
through some of the news media, that people were refusing to 
call the sheriffs department when they were victims of crime 
because they were afraid that they were going to be hassled 
about their immigration status.
    As we work our way through this process, it is vitally 
important that we understand what the priorities are, and that 
we don't make decisions that maybe sound good on the face at 
the time we are making it, but have long-term consequences and 
implications to the people that we represent, all the people 
that we represent.
    Mr. Hostettler. The gentleman's time has expired.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Mr. Hostettler. The chair recognizes the gentlelady from 
California, Ms. Lofgren, for 5 minutes of questions.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Congressman Reyes, I really appreciate, I know we all have 
multiple things to do, but your Committee assignments are very 
serious ones, obviously, and that you would take time away from 
those serious assignments to be here with us is very 
meaningful, and I appreciate it.
    I think, really, as has been mentioned on both sides of the 
aisle, we are fortunate to have someone with your background 
and your expertise as one of our colleagues, as someone we can 
turn to for the straight scoop on what is going on.
    So some of the questions I have really have to do with 
resources. In May of last year, we had a vote, the proposal the 
Democrats made was to have an additional $41 billion to secure 
the nation from terrorist threats, $6.9 billion more than the 
president had authorized. It included $28.4 billion for border 
and transportation security and immigration processing. All of 
the Republican Members of this Subcommittee voted against those 
resources.
    On May 5 of last year, we had another proposal to add 550 
additional border patrol agents and 200 additional immigration 
inspectors in unmanned border aerial patrol vehicles. Again, it 
was shot down on a partisan vote. We also had efforts to 
provide additional detention beds.
    Based not on your experience as a congressman, but your 
vast experience in the border patrol, would these resources 
have assisted us in getting a better control of our border 
situation?
    Mr. Reyes. Well, absolutely. I don't have the citations 
that you just read, so I am going based on memory. I do 
everything I can to get additional resources at different 
points in legislation by talking to my colleagues on both sides 
of the aisle. In fact, when we tried to increase resources for 
border security, I try to get bipartisan support from both 
sides of the aisle because it is so critical.
    Anytime that we are able to increase resources to go and 
assist the border patrol, to assist the U.S. Attorney's office, 
additional judges, the U.S. Marshals, it is all vital. I will 
tell you, it is critical at this point in our history, having 
had the experience almost 5 years ago of 9/11.
    Ms. Lofgren. I am the Ranking Member of the Intelligence 
Subcommittee on Homeland Security, and Sunday and yesterday the 
Chairman and I, along with two Members, one from each side of 
the aisle, went to Canada and visited with the Canadian 
security individuals, as well as their border folks and 
immigration folks. It was an interesting meeting.
    We were just in Toronto and so I didn't have the 
opportunity to tour, obviously, the 5,000-mile border. But we 
are aware that since these are post positions, about 200 
American border patrol agents are on the 5,000-mile Canadian 
border at any given time. There was a lot of focus on the 
southern border, but in your judgment, is 200 agents on a 
5,000-mile border sufficient?
    Mr. Reyes. The Canadian border is grossly understaffed. 
There are not quite 1,000 border patrol agents assigned there, 
which means that since the border patrol covers 24 hours a day, 
7 days a week, 52 weeks a year, it averages between 200 to 300 
per shift, depending on the number of agents that are 
available, grossly understaffed. We need additional border 
patrol agents. We need technology, infrastructure support.
    The list is long, and that is why anytime we get an 
opportunity to increase resources for border security, we ought 
to take that seriously.
    Ms. Lofgren. I just want to make one final comment, because 
it has to do with resources. I mentioned in my opening 
statement that the House-passed bill would make 11 million new 
individuals felons, and in fact that there was a motion made by 
the Chairman, who was the author of the felony provision who 
defended in the Rules Committee to change the felony to a 
misdemeanor. That failed because a majority of the House either 
thought it should remain felony or that it should remain a 
civil offense, instead of a criminal offense.
    I raise that issue not to argue whether the civil offense 
is appropriate, although I believe it is, it is a resource 
issue. It could cost, and we have gone through this, whether it 
is a felony or misdemeanor, up to one-third of a trillion 
dollars to arrest, prosecute and incarcerate 11 million people.
    I don't believe that a Republican Congress that won't hire 
more than 200 border patrol agents for the northern border is 
going to actually appropriate one-third of a trillion dollars 
to arrest, prosecute, try and incarcerate 11 million people.
    I see my time is up, and I yield back.
    Mr. Hostettler. The chair now recognizes the gentlelady 
from California, Ms. Waters, for purposes of discussion.
    Ms. Waters. Thank you very much.
    I would like to address my question to Mrs. Phyllis 
Schlafly. I am a mother, raised two children. I have two 
grandchildren. I come from a huge family, 12 brothers and 
sisters. I have probably about 50 or so nieces and nephews. We 
have strong family values. We are very much family people. I am 
concerned about the separation of families in Mr. 
Sensenbrenner's immigration reform law.
    What would you do, Mrs. Schlafly, with a family where the 
mother and father have been here, I don't know, 20 years or 
more. They have three children who were born here in the United 
States. One of them served in Desert Storm. The other one is 
now in Iraq. You have a mother that is working. She is doing 
domestic work and she is working for people, famous people, 
Rush Limbaugh, others, who have undocumented immigrants. You 
have a father who works for America's biggest retailer, Wal-
Mart, one of the more conservative political retailers in the 
country.
    But the mother and father are not documented. They have 
these grandchildren. They have children who have served this 
country. One of the sons is a police officer, on and on and on. 
What would you do with that mother and father under the 
Sensenbrenner bill? Would you return them?
    Mrs. Schlafly. I don't believe the Sensenbrenner bill calls 
for deporting anybody. I think it simply calls for enforcing 
the law.
    It does call for employment verification, and if they lose 
their job they might maybe get the idea that they should return 
to their native land. If their children are grown and have good 
jobs, as you mentioned, they can make their own decision. 
Perhaps they can provide some resources.
    If there are small children who are born in this country to 
illegal aliens, they are also Mexican citizens and the parents 
can certainly take them with them. But nobody is calling for 
deporting large numbers of people.
    Ms. Waters. What would you do with the mother and father?
    Mrs. Schlafly. I think if they cannot meet the requirements 
for employment, then they should lose their jobs.
    Ms. Waters. Well, what would happen to them under the 
Sensenbrenner bill? Would they be felons?
    Mrs. Schlafly. Well, I think the effort was made to reduce 
that to a misdemeanor, and that works perfectly all right with 
me. The idea that people are going to go around and throw 11 
million people in jail is I think a straw man argument. Nobody 
is going to do that.
    Ms. Waters. What would happen to this mother and father 
under the Sensenbrenner bill?
    Mrs. Schlafly. I think they would lose their job.
    Ms. Waters. What else would happen to them?
    Mrs. Schlafly. Well, you have described the good jobs that 
their children have. They could take care of them.
    Ms. Waters. Would they remain in the United States under 
the Sensenbrenner bill?
    Mrs. Schlafly. I don't believe we have any plans for a 
large-scale deportation. I think that is a false argument.
    Ms. Waters. So you are saying that this mother and father 
could become felons and could remain in the United States and 
not incarcerated?
    Mrs. Schlafly. I don't believe they would be incarcerated, 
no. I think the Congress will probably fix up the felon 
provision.
    Ms. Waters. That is the problem with the Sensenbrenner 
bill. It is like you said, you don't quite know, you don't 
believe, but all we have is the language of the bill.
    I just described to you a situation that Mr. Sensenbrenner 
and others refuse to deal with. As I said before, we all 
believe in border security. We all support border security, but 
we have problems that need to be addressed, real problems that 
need to be addressed.
    Of course, the son who was a soldier who served in Desert 
Storm or who is in Iraq probably could help take care of their 
mother, even though the one in Iraq doesn't get very much money 
as a soldier. So you are suggesting that this patriot who is in 
jail or the brother who served in Desert Storm could take care 
of the mother and father while they are in prison. They could 
send them some money to buy little things.
    Mrs. Schlafly. Who is in prison? I didn't say put anybody 
in prison.
    Ms. Waters. You didn't say it, but the bill does.
    Mrs. Schlafly. I don't think so, but you have pointed out 
one problem with the House bill.
    Ms. Waters. A big problem.
    Mrs. Schlafly. There are so many problems with the Senate 
bill, and the thing is that when you all talk about 
``comprehensive'' and going to conference, for all the reasons 
that the minority has expressed here, and Mr. Reyes has 
expressed about the failure to enforce border security, we do 
not believe that we will get border security if you pass the 
Senate bill or any part of it, or anything that is called 
``compromise.'' We simply don't believe it. We have to have 
border security first.
    Ms. Waters. What about the sanctions on employers?
    Mr. Hostettler. The gentlelady's time has expired.
    Ms. Waters. Thank you.
    Mr. Hostettler. We will go now to a second round of 
questions.
    Mr. Goodlatte. Mr. Chairman?
    Mr. Hostettler. Oh, I am sorry. The chair recognizes the 
gentleman from Virginia, Mr. Goodlatte, for questions.
    Mr. Goodlatte. Well, thank you, Mr. Chairman.
    Mrs. Schlafly, let me help you out here just a little bit. 
The fact of the matter is the hypothetical posed by the 
gentlewoman from California doesn't have to take place under 
the House-passed bill. That same hypothetical can be applied to 
the current law. Those people are here illegally in the United 
States right now, and current law requires them to not be in 
the United States right now.
    So this problem was not created overnight. It has been 
building up for 20 years since the 1986 act, and we can phase 
in the enforcement of the law in a fashion so that people do 
not see a mass exodus of people to the borders of the country. 
This is a serious problem right now, whether we have the 
Sensenbrenner bill or not. It is a serious problem right now 
that is not being addressed.
    That is what the American people are impatient about. It is 
not the Sensenbrenner bill or whether it has a felony provision 
in it that the gentlewoman from California voted to keep in it 
when an amendment was offered on the floor to change that to a 
mere misdemeanor, when people would certainly not be 
incarcerated in prison under a misdemeanor.
    So the issue is: Do we respect the laws of the United 
States? The question posed to us comes about not from something 
that occurred yesterday, but something that has been building 
up over 20 years of lack of enforcement of the law by various 
Administrations in this country, including the current one. So 
the issue here is let's get about enforcing the law.
    I would like to ask the panelists two questions, starting 
with Representative Reyes. First of all, when it comes to 
enforcing the law, you can't simply put up walls on the border 
or put more border patrols there. No matter what you do there, 
some people are going to get through.
    Some people are coming through. In addition, up to 40 
percent got through legally because they presented the 
necessary documentation at the border, at the airport, that 
showed they had a student visa or a visitor's visa or a 
business visa, and then they stayed over the time when they 
were supposed to leave the country.
    So enforcement in the interior of the country is to me 
something that we are not talking enough about. And two things 
that we haven't talked enough about at all here today are, one, 
the use of local law enforcement; and two, an employer 
verification system that works with identification. Some people 
call it a national identification card.
    Some people call it a tamper-proof Social Security card, 
but it seems to me that if you have been given a Social 
Security card in this country, it ought not to be subject to 
forgery. The best way to do that is to use the database that is 
controlled by the Social Security Administration that says this 
person meets these particular physical characteristics and 
location and background and so on, and those things have to 
match up with the person who presents that number when they go 
to an employer.
    So I would like to know from each of you if you support a 
tamper-proof Social Security card and if you would use local 
law enforcement, not just to enforce our criminal laws. Right 
now if they want to arrest an alien who has committed a crime, 
they can do that, but they get no cooperation and I don't think 
it is even legal for them to simply enforce the immigration 
law.
    When they find somebody in the community that hasn't 
committed a crime, but is illegally in the community, should 
they, that local law enforcement, be able to detain the 
individual until the immigration service then removes them from 
the country?
    Ms. Waters. Will the gentleman yield?
    Mr. Goodlatte. I am running short of time and I want all 
four of these witnesses to answer this question, but then I 
would be happy to yield.
    Mr. Reyes. Well, actually, I would tell my good friend, I 
don't think you were in the room, I addressed both of those.
    Mr. Goodlatte. Oh, good.
    Mr. Reyes. H.R. 98 actually does that tamper-proof Social 
Security. It is the Dreier-Reyes bill. Also, and then I would 
just let you know----
    Mr. Goodlatte. So you support that.
    Mr. Reyes. Yes, absolutely.
    Mr. Goodlatte. You initiated legislation. I am glad to hear 
that.
    Mr. Reyes. And the other thing is that the current database 
for the Social Security is inadequate to be able to do that 
employer or employee verification process. As to the local law 
enforcement, I don't support that, and I don't support that 
because I believe that we have to prioritize enforcing Federal 
laws, especially as it affects immigration, to Federal 
agencies.
    Mr. Goodlatte. We don't necessarily bifurcate like that in 
other areas. If you have somebody, for example, who is 
trafficking in drugs in a community, you don't say, well, we 
are going to wait for DEA to come. Local law enforcement comes 
in.
    Mr. Reyes. Here is the difference, here is the difference, 
that if you are in this country and you have been a victim of 
crime, and you believe that by reporting it to your local law 
enforcement you may be referred to immigration authorities, you 
are not going to report that activity. I think if you serve, 
and not just law enforcement chiefs and sheriffs around the 
country, but city mayors and other administrators, it is not a 
good practical policy.
    I favor making sure that we fund the border patrol and the 
immigration and customs enforcement.
    Mr. Goodlatte. Reclaiming my time, since it expired. Mr. 
Chairman, if I might ask leave to allow the other three 
witnesses to briefly answer those two questions, I would 
appreciate it.
    Mr. Hostettler. Without objection.
    Mr. Goodlatte. Thank you, Representative Reyes. I apologize 
for interrupting, but the time is short.
    Mr. Hostettler. For a brief response please.
    Mrs. Schlafly. Thank you.
    I would like to respond by asking the Chairman to insert in 
the record a very important article that just came out 
yesterday written by former Justice Department attorney Kris 
Kobach, which shows that three of the pilots on 9/11 were 
stopped for speeding just a short time before 9/11, and they 
were all in visa violations, but they weren't able to go ahead 
and detain them.
    If they had been detained, we could have avoided 9/11. But 
the Senate bill has in it the loophole to prevent local law 
enforcement from detaining them for that type of offense, and 
it is very important.
    Mr. Hostettler. You would support local law enforcement?
    Ms. Schlafly. Absolutely.
    Mr. Hostettler. Without objection.
    [The article follows in the Appendix]
    Mr. Camarota. Briefly, obviously you want the immigration 
service to most of the enforcement, but if in the normal course 
of police work you come across someone who is an illegal alien, 
obviously you should be able to turn him over, just as if you 
find in the normal course of an investigation, you find, and 
you are looking at people's records and you find a tax cheat.
    You don't say, well gosh, we don't do anything with tax 
law, they are embezzling money and so forth. No, you call the 
local Federal authorities, he is cheating on his taxes. It is 
just common sense. You don't have to go out and do it 
proactively, but if you come across someone in the normal 
course of law enforcement, I think that could be really 
helpful.
    Mr. Reyes. And that is done now, by the way. There doesn't 
have to be any changes.
    Mr. Camarota. But often the immigration service kind of 
responds with, hey, you know, let them go; we don't have the 
space for them.
    Mr. Reyes. Lack of resources, blame Congress.
    Mr. Edwards. I have no problem with enhancing the security 
of the Social Security card like H.R. 98. It is a good step. I 
think you don't need it necessarily if you have a fully 
expanded employment verification system that is mandatory on 
all employers because you are pinging on the databases in lieu 
of checking documents.
    As far as State and local law enforcement, a lot of State 
and local law enforcement officers and organizations and others 
support the routinization of their having a role in immigration 
enforcement. It is a common sense step that if somebody like my 
brother, who is a police officer, who routinely goes to, say, a 
domestic spat or stops somebody for speeding or something. If 
he were to find out that this person is an illegal alien or has 
reasonable suspicion thereto, then he could check quickly in 
some manner.
    Perhaps NCIC would be the best route, the quickest to find 
out if that person is illegal, and then to routinize those 
kinds of encounters by State and local law enforcement, the 
700,000 officers who are already on the streets policing our 
streets, keeping our communities safe. That has got to be a 
logical key component of all of this.
    Mr. Goodlatte. Thank you.
    Mr. Hostettler. Thank you.
    The Committee will now turn to a second round of questions.
    Dr. Edwards, if you will indulge me, I would like to ask 
you a question regarding a hearing we had earlier this year, 
that the Subcommittee had in joint session with the 
Subcommittee on Crime, Terrorism, and Homeland Security.
    I asked a question of the witnesses regarding the issue of 
expansion of employment opportunities. This is a question I 
asked: One of the significant issues that will be addressed in 
this Congress is the issue of the expansion of employment 
opportunities for individuals who are currently in the country 
illegally, known as a guest worker program, temporary work 
program or the like.
    While many who support such a program do not wish for it to 
be characterized as amnesty, my first question is--and I asked 
this question of the panel of sheriffs from the border 
countries--have things gotten better since 1986 or worse as a 
result, I guess I should say, after the passage of the amnesty?
    Sheriff Leo Samaniego, currently sheriff of El Paso County 
in Texas, responded quite quickly in this way: ``Anytime you 
give a group of illegal undocumented aliens that are already 
here amnesty, or even anything that sounds close to amnesty, 
you are sending the message to the next 12 million that are 
going to come in after them. You cannot let them come in. They 
know that if they stay here long enough, they get a job and 
they are good people, that they are going to be given amnesty 
and they will be able to stay here. But it sends the message to 
the rest of the world, `You can do the same thing, because the 
same thing is going to happen to you.' ''
    Sheriff Leo Samaniego of El Paso County talked about 
anything that sounds close to amnesty. Do you think the Senate 
bill meets that description of something that sounds close to 
amnesty?
    Mr. Edwards. I think it is outright amnesty. A lot of the 
elements, as they are characterized by various proponents, 
sound like amnesty. But it meets the minimal, if not over the 
top, it meets the standard of encouraging the next batch of 
people to come illegally.
    It is an enticement to promise something that they would 
get, and there are reports from the border that people captured 
and say, I am coming because I hear there is going to be a 
legalization program and I want a piece of that. So that 
happens now.
    Mr. Hostettler. Right.
    Mrs. Schlafly, do you hear from the folks outside of the 
Beltway similar sentiments as Sheriff Samaniego from El Paso?
    Mrs. Schlafly. Absolutely. I think everybody understands 
that the Senate bill is amnesty or amnesty-lite, and words like 
``legalization'' and ``path to citizenship'' really don't mean 
that it is not amnesty. That is what people understand. It is 
just like they understand ``comprehensive'' means wrapping it 
all together and we will never get border security for all the 
reasons that have been so eloquently described by Mr. Reyes and 
the minority.
    Mr. Hostettler. Dr. Camarota, in viewing this issue, we 
also have to look at it from the perspective of the individual 
who has violated the law by coming into the country illegally. 
They might not know what the term ``amnesty'' means or 
``comprehensive'' or anything like that, but do they see this 
as an invitation?
    Sheriff Samaniego, do you think he is accurate and does 
your experience and your research show that he may be accurate 
in the sense that it is going to send a message to the next 12 
million that are going to come in after them?
    Mr. Camarota. Not only does common sense suggest that that 
is the case, but in a 1997 report that actually the then-
Chairman of this Committee Smith, Congressman Smith, actually 
subpoenaed from the INS, which they hadn't released, showed 
that their estimates suggest that after the passage of the 
amnesty, at the height of the legalization in 1989, illegal 
immigration, the growth in that population, the number of new 
people coming in, had increased by 1989 by 44 percent from 
1987. They concluded it seems very likely that the last amnesty 
spurred a real surge of illegal immigration, and of course, how 
could it otherwise.
    Mr. Hostettler. Thank you.
    Mr. Reyes. Mr. Chairman, could I?
    Mr. Hostettler. Yes.
    Mr. Reyes. I was the chief in South Texas during this 
period. When somebody says compare 1987 to 1989, 44 percent is 
probably correct, but it is a distorted picture, because after 
the passage of the law in 1986, as I mentioned in my opening 
statement, in some of our sectors the attempted illegal entries 
went down by as much as 80 percent. By 1989, people had figured 
out, ``Hey, INS didn't get the resources to enforce employer 
sanctions,'' so they started coming back into this country in 
record numbers.
    But that statistic, I think, in my opinion, is a distorted 
one.
    Mr. Camarota. Well, let me respond to that. People have 
tried to look at the earlier trend, it appears that, exactly as 
the congressman said, that there was a real drop-off when the 
amnesty was passed. People thought we were going to enforce the 
law. But it does appear that as soon as they realized that that 
wasn't going to happen, and they had the precedent of the 
previous amnesty, we got a surge.
    And these figures are not the number of people being 
apprehended. They also include overstays of visas, which of 
course you wouldn't have seen, and we think that that comprises 
about 40 percent of the illegal population.
    So it is true that there was a drop-off associated with the 
amnesty, when everyone realized it wasn't going to be enforced, 
but it appears that there was definitely a surge associated 
with the legalization, again, once everyone realized it wasn't 
going to be enforced.
    Mr. Hostettler. Thank you.
    The Chair's time is concluded. The chair recognizes the 
gentlelady from Texas for 5 minutes for questions.
    Ms. Jackson Lee. Thank you very much. I am delighted that 
Mr. Camarota--and I gave you a Ph.D, but that is all right, 
because originally I called you ``Dr. Camarota.'' So thank you 
for your insight. Obviously, my assumption is that you are so 
specialized in the area that you might be a Ph.D. Is that 
incorrect?
    Mr. Camarota. No, I do have a Ph.D, from the University of 
Virginia.
    Ms. Jackson Lee. Then they need to correct, your side. I 
was correct.
    Mr. Camarota. Yes, ma'am, you were. [Laughter.]
    Ms. Jackson Lee. I was wondering why you were looking like 
that. I am correct. All right. Dr. Camarota, thank you.
    The reason why I was going to just mention--I am very glad 
that you said that a lot of the illegal immigration is for 
overstays, which means that they enter this country legally. I 
think that is a misnomer as well. What are overstays? It is 
individuals who might have possibly tried to seek legal status, 
but because our legal immigration system is so broken because 
we have not funded that the way it should have been, we have a 
crisis as well.
    Let me share these words with you. First, it takes hard-
nosed enforcement on the border, at our airports and seaports, 
and in the workplace. One might wonder where these comments are 
from. It is from a statement of Senator Edward M. Kennedy, 
which really begs the question of whether or not we are 
suggesting that there are those of us who are Democrats who are 
not serious about border enforcement.
    The Senate bill provides for these additions to securing 
the border: double border patrol, adds 12,000 new agents, 2,400 
each year. While we are stalling and having these hearings, we 
are not in conference to assure that we get that amount of 
support. Doubled enforcement, interior enforcement, 11,000 
investigators over the next 5 years. New security perimeter, 
adds new technology at the border to create virtual fence; 
tighten controls, expands exit-entry security system at all 
land borders and airports; construction of barriers; mandates 
new roads and vehicles barriers at borders where necessary.
    Might I also say that seven times over the last 4\1/2\ 
years, Democrats have offered amendments to enhance border 
security resources. If these Democratic amendments have been 
adopted, one in particular by Mr. Obey just recently, there 
would be 6,600 more border patrol agents, 14,000 more detention 
beds, and 2,700 more immigration agents along our borders than 
now exist. Each time, these efforts have been rejected by the 
Republican majority.
    Might I also say that this whole debate about felony versus 
misdemeanor, some of us had the interest and concern that we 
didn't want a priest, we didn't want aunts and uncles and 
grandparents to be indictable felons because the language also 
said that the assistance of individuals who might be 
undocumented therefore would create a felon. I think we erred 
on the side of common sense.
    And yes, there is deportation. It is what you call 
detention and expedited removal. That means that you would, if 
you will, entrap the nation's courts in years and years of 
litigation on the deportation process, which does require due 
process and the right to counsel.
    Might I also say on this question of the minimum wage, I 
would hope that when we talk about raising the minimum wage, we 
have concern about Americans. Americans have not had an 
increase in the minimum wage. I might think that the $20-an-
hour that was given somewhere in Texas is based upon the 
availability of non-availability of workers. It has nothing to 
do with the minimum wage.
    So the minimum wage still remains a sore point which my 
colleagues on the other side of the aisle refuse to address the 
question of helping Americans, giving them a minimum wage. So 
if we are multi-task, let's do that as well.
    I would also suggest that we need to make it very clear 
that on the frontlines of Iraq and Afghanistan are individuals 
who have undocumented relatives, who are willing to sacrifice 
their lives in the name of freedom of this country. That is why 
we think we should move forward with a conference so we can 
address and make sure that the comments that have been made by 
the witnesses, that are very legitimate, we have not done our 
job to date. Let us get into a conference, show the American 
people that we are serious.
    Might I ask this question to all of the witnesses: What is 
your thought about the ability to deport all of the 12 million 
undocumented, if you will, individuals who are here?
    Why don't I start with Mr. Edwards. What procedures are you 
aware of, the detention procedures in the Sensenbrenner bill, 
expedited removal, and the possibility of the resources that it 
would take to deport all those individuals, obviously breaking 
up families, and if you will, totally being disengaged or 
disingenuous. Would you answer the question please, Mr. 
Edwards?
    Mr. Edwards. Yes, ma'am. Thank you for the question.
    I don't think that the Sensenbrenner bill sets up a 
scenario where you would have mass deportation. I don't know of 
anybody who is seriously suggesting mass deportation. However, 
the Sensenbrenner bill would give additional tools and close 
some of the existing loopholes in the processes and on the 
resource side that would help to enhance the ability to reverse 
the current set of incentives.
    It would reverse the incentives for additional in-flow 
because it would no longer be dangling the prospect of another 
amnesty, and therefore it would say, in addition we are going 
to actually enforce the laws on the books. So there would be a 
reduction in the in-flow.
    It would also apply additional pressure. With the 
employment verification that employers would have to 
participate in and check the eligibility to work of their new 
hires----
    Ms. Jackson Lee. Let me move on to Dr. Camarota. I 
appreciate it. I would like all of the witnesses to answer very 
quickly. Thank you.
    Mr. Camarota. It seems to me that the Sensenbrenner bill is 
based on the idea of attrition through enforcement. Police the 
border. Go after the employers. Get the cooperation of local 
law enforcement. Make sure illegal aliens can't get driver's 
licenses, open bank accounts, get a library card, et cetera.
    When you do that, you dramatically increase the number of 
people who go home on their own or self-deport. Right now, we 
think about 150,000 to 200,000 people already go home on their 
own. The goal is to double, triple and quadruple that by 
cutting them off from American society.
    At the same time, if you dramatically reduce the number 
coming in, the problem could take care of itself over time.
    Ms. Jackson Lee. Thank you. That no way meets 12 million, 
but I thank you very much.
    Mrs. Schlafly?
    Mrs. Schlafly. I don't think anybody has recommended mass 
deportation since President Eisenhower. He did deport quite a 
lot of them. The figures show that for every one he deported, 
10 went home on their own. So I think that what Dr. Camarota 
says is right.
    But may I also add that I am just so excited that the 
minority is so strong for border security and wants more 
resources.
    Ms. Jackson Lee. Thank you.
    Mrs. Schlafly. But you see, there are some of us who don't 
believe that President Bush wants to do it. So it would be just 
great if you would pass the Sensenbrenner bill and get the 
Administration to have to put up or shut up about border 
security before we talk about anything comprehensive.
    Ms. Jackson Lee. Let me say that I enthusiastically join 
you in hoping that the Administration would do their job, and 
commend to you that if we get the conference going, we will put 
ourselves in a position to put the burden on the Administration 
to follow the lead of the American people, comprehensive 
immigration reform, and I thank you.
    Representative Reyes?
    Mr. Reyes. Thank you.
    First, let me just make a comment. I am surprised that Mrs. 
Schlafly here would think we would want anything less than 
secure borders after 9/11. I guess I am a little bit offended 
that anyone would think that because we are Democrats we want 
something less.
    Having said that, let me just make a couple of comments on 
your question. First of all, the issue of estimating the number 
of undocumented people in this country is not finite. I mean, 
if you will stop and think, about 3 or 4 years ago, that figure 
was 9 million. As we got closer to whipping up the frenzy of 
anti-immigrant, it now is at 12 million. Back in 1986 when IRCA 
was passed, they were talking about legalizing 9 million. That 
turned out to be 3 million. I think that is important.
    When you talk about the 1.3 million arrests every year of 
undocumented coming across the border, in some areas of our 
border 30 to 50 percent are the same person getting caught 
multiple times. So it is not 1.3 million coming into this 
country. That is ridiculous. As the doctor said, 40 percent 
actually that are here illegally now, or out-of-status 
technically, actually entered with a legal visa.
    Of the whole pool of undocumented in this country, the 
estimate is that 60 percent are from Mexico, yet when people 
talk to me about illegal immigration, the invariably in the 
same breath mention the problem with Mexico. So there are 
underlying issues here that are not just anti-immigrant, but 
anti-Mexico based on the people that talk to me about this very 
issue.
    I think that when we pass legislation or a proposal like 
the Sensenbrenner bill, that makes people think that there are 
going to be massive roundups, and by the way, when President 
Eisenhower ordered that mass deportation, people often forget 
that a whole bunch of those people were U.S. citizens that got 
caught up in the same frenzy of being deported back to Mexico. 
Some of those U.S. citizens that were deported to Mexico 
weren't even from Mexico, but from other countries.
    So we need to be very careful and understand that when we 
are dealing with human beings, when we are dealing with what 
has in my opinion made this country great, which is the legacy 
of immigrants, we better be careful and understand the 
consequences that we create for ourselves.
    We don't need nor do we want a massive roundup, nor do we 
want whatever that figure is, the 9 million to 12 million 
people fearing that local law enforcement or others are going 
to be coming to their homes to round them up and put them back 
across the border. It may be the wrong border that they put 
them back across.
    Mr. Hostettler. Thank you. The gentlelady's time is 
expired.
    The chair now recognizes the gentleman from Texas for 
questions.
    Mr. Gohmert. Thank you, Mr. Chairman.
    My sister sent me an e-mail that had a 1962 cartoon where a 
Native American Indian was saying to a Government official, 
basically, you need to be strict on enforcing immigration; we 
were a bit too lax on enforcing ours. That was 44 years ago, 
and still we haven't gotten it quite right.
    With regard, and let me address the minimum wage again. The 
minimum wage is what willing employers will pay to willing 
employees, and the reason that so many immigrants in East Texas 
are making vastly above the minimum wage is because they work 
hard, they become invaluable to their employers, and that is 
what drives the minimum wage. I have talked to a lot of 
employers, including Dairy Queens, and they can't hire people 
for minimum wage, so the market takes care of raising itself.
    But I want to go back to a problem that has been mentioned 
a little bit about the local law enforcement's authority to 
detain people. As I understand, congressman, you had indicated 
that, or believe they had the authority now. But let me tell 
you my experience as a judge.
    We had a constant problem with trying to get somebody from 
the INS to come, deport somebody, and we had problems with the 
sheriff when they did fine somebody, if they were illegally 
here and had committed a crime. They would notify INS and they 
wouldn't come and get them. They wouldn't pay them for all the 
days, $50 a day to keep somebody housed. It was breaking the 
county. I have heard other sheriffs say the same thing.
    I had a problem with some people who had committed minor 
crimes, I mean, they had committed what were considered to be 
minor felonies, normally first offense, get your probation. It 
troubled me deeply, reading over the rules of probation and 
conditions in order to stay free and out on probation, you had 
to, number one, the number one condition on every State of 
Texas form was obey all laws. And then next it would say report 
to the Smith County or the county probation department either 
once a week or once a month.
    That amazed me because if they are illegally here and they 
must obey all laws, then how can they report to the local 
probation officer every week or every month. I am ordering them 
to obey the laws and in the next sentence I am ordering them to 
break the law by being here illegally.
    So I began ordering that if they were not legally here, 
they had to apply, and I met with some Hispanic groups and 
other groups about my concerns, and we reached agreement, and I 
started requiring within so many days, you had to apply for 
legal status, and if you did not get an affirmative result 
within so many days after that, you had to report by mail with 
proof each month that you were in a country you were legally 
authorized to be in.
    When that hit the news, I got pounded on by the regional 
director of INS in Dallas that there was some renegade judge 
over in East Texas that was trying to enforce Federal law. When 
he is a State district judge, he can't do that. And one 
reporter said he actually called you an idiot and a fool, but 
we didn't put that in our report.
    After he had a chance to meet with his PR people, they said 
it may not be a good idea to be calling a judge that is helping 
you do your job a fool or all these names, because he is 
actually trying to help you do what you should already have 
been doing. But they made such a distinction about a State law 
enforcement person should never be able to enforce the law.
    I am just curious, do you think we ought to make provisions 
that allow local law enforcement to be compensated if they are 
doing the job of detaining people who are illegally here who 
violated the law?
    Mr. Edwards. Yes, sir. There are measures in both the House 
bill and the Senate bill which take those remedial steps. That 
should be done, certainly.
    Mr. Gohmert. Mr. Camarota?
    Mr. Camarota. Yes, common sense suggests that it is a great 
idea.
    Mr. Gohmert. Well, if it is such common sense, you would 
think that it would have been done a long time ago.
    Mr. Camarota. Unfortunately in many ways our immigration 
policy and common sense seem often at odds.
    Mr. Gohmert. Mrs. Schlafly?
    Mrs. Schlafly. Well, according to this article, and again I 
ask if you will insert it in the record, by a distinguished 
attorney, there is language in the Senate bill to prevent 
enforcement by local law enforcement people. It is very 
artfully written, but it is a loophole that I think he 
described. He pointed out what a danger this is to the 
terrorists and how 9/11 could have been avoided if local law 
enforcement had been willing to detain the people. So may I ask 
that this be put in the record?
    Mr. Hostettler. Without objection.
    Mr. Reyes. I just wanted to make mention of a couple of 
things because, again, the authority to detain and refer to 
Federal officials is there, because there is an articulable 
fact based on the situation to call the border patrol or the 
immigration and customs enforcement, they can do it.
    The response becomes the issue, and the further you get 
away from the border, the less likely that DHS is going to have 
the resources to send to check. I agree with you. If somebody 
has landed before a judge, that means they have violated some 
law and there ought to be a process there, and we ought to 
provide as a Congress the resources to be able to do that.
    If somebody winds up in jail, there ought to be a regular 
system where INS or border patrol or ICE has jail check. We 
used to do that in both of my sectors in South Texas and in 
West Texas and New Mexico where there was a jail check because 
we don't want criminals to stay in this country, but the issue 
becomes one of resources. If you have an area the size of New 
Mexico and West Texas, and somebody lands in jail in the 
northern-most point in New Mexico where you don't have a 
station there, you need to have somebody get up there.
    That is why it is vital and important that we fund and we 
resource interior enforcement to be able to do that. Again, I 
will tell you, I don't think it is good public policy to have 
local law enforcement become immigration agents.
    Let me just preface my comment by saying that immigration 
law, people don't realize it, but immigration law is the second 
most complex law in the world, next to maritime law. The first 
time somebody deports somebody or arrests somebody that is in 
fact a citizen, they are opening themselves up for a lawsuit.
    I don't think too many municipalities or counties or cities 
are going to be very enthused about having their officers do 
that if they are going to be sued because somebody was arrested 
because they didn't speak English or they didn't look like they 
were U.S. citizens or other reasons that I have heard in my 
26\1/2\ years in the border patrol.
    Mr. Gohmert. I might have additional time. Who would like 
to respond? If I could just have additional time for Mr. 
Edwards to respond, and then I won't comment further, just hear 
his response.
    Mr. Edwards. Just one quick clarification. There are 
provisions that I refer to that are desirable in the Senate 
bill. There are certainly many in the House bill regarding 
detention, reimbursement, transportation, exchange of custody, 
things of that nature.
    There is a provision which was referenced which is highly 
undesirable in the Senate bill which would prohibit, would 
restrict even the current inherent authority that State and 
local law enforcement have with respect to prohibiting them to 
only be engaged in involvement on the criminal provisions in 
the INA, rather than those that are lesser offenses. You have 
to watch that provision, which I think Kris Kobach's article 
addresses.
    Mr. Hostettler. Thank you.
    The chair recognizes the gentlelady from California, Ms. 
Lofgren, for questions.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I think it is important to reflect back again on what we 
are doing here today. I just got an e-mail from my staff of an 
article where President Vicente Fox has held a press conference 
announcing that President Bush has told him there is not going 
to be any legislation this year on immigration. We have had a 
series of hearings around the country. We are having hearings 
here today. It is really just a bunch of talk. I think that is 
actually very destructive.
    I was interested in Mrs. Schlafly's written testimony where 
she states George Bush has had 6 years to enforce border 
security; when grassroots Americans don't believe the president 
is leveling with us, it damages the moral fabric of our nation. 
I think really that statement speaks to a broader phenomenon, 
which is that people don't believe what we are doing here. It 
is all talk.
    That is a problem that we are encouraging here today. We 
talked about the Sensenbrenner bill. There are really only two 
provisions in the bill that really relate to border security. I 
will tell you. If you take a look at the provision in Title I, 
it says not later than 18 months after the date of the 
enactment of this act, the secretary of homeland security shall 
take all actions the secretary determines necessary and 
appropriate to achieve and maintain operational control over 
the entire international land and maritime borders of the 
United States.
    Well, we don't need a law to do that. That is the 
secretary's obligation today, and he has failed to do that 
obligation. And why would we want to give him 18 more months of 
failure to do his job? When I think about Congress, we haven't 
provided the resources to do any of this stuff.
    You talk about the detention provisions in the act. I think 
it is worth noting that we don't even fund the current 
provisions of the law. The president zeroed out SCAP funding in 
his budget proposal, and we have never provided more than 33 
percent of SCAP funding.
    So I think the GOP has become the gab-only party. It is 
just talk. It is just a bunch of gas and hot air and it is not 
any kind of action. My colleague from Virginia earlier said 
that he used to be an immigration lawyer, and so did I. I once 
taught immigration law, and one of the things that I find 
concerning are some of the assertions made by people in the 
debate that are just I think so incorrect. It is a real 
pleasure to be able to have somebody with the years and years 
of experience at the border, like our colleague Congressman 
Reyes.
    The whole issue, and I think it was mentioned by one of the 
witnesses, perhaps it was Dr. Edwards, about so-called ``anchor 
babies.'' You know, in your experience, Congressman Reyes, have 
you ever run into it? Number one, you have to be a U.S. citizen 
to apply for a parent, and you have to be an adult. Have you 
ever encountered in your career as a border patrol person 
somebody who crossed the border so that 18 years later an adult 
child could petition for them?
    Mr. Reyes. The answer is no. And you are correct: In order 
for a baby to bestow benefits on the parent, you have to be 21. 
That is the law.
    Ms. Lofgren. Well, and for brothers and sisters, you can 
petition for U.S. citizenship in the petition for brothers and 
sisters?
    Mr. Reyes. Yes, exactly, to bestow any immigration benefit.
    Ms. Lofgren. But now, if you take a look at Mexico, for 
example, it is a 13-year waiting list, so you would be talking 
about 31 years when you add in to gain adulthood and then the 
waiting period for the petition, it could get longer. Have you 
run into anybody who came across and gave birth so that 31 
years later another child could get their residence?
    Mr. Reyes. No. In fact, the most common reason that people 
give is because they see the United States as the best 
opportunity for their children, and they just want to give them 
the option to be a U.S. citizen.
    And by the way, children are born every day in the United 
States that their births are fully paid by people from Mexico, 
and I am going to assume from Canada as well, because they do 
want to have that right as an American citizen. I think it is a 
testament to how great other people from around the world see 
our country as being.
    Ms. Lofgren. I would just like to note that in the 
Sensenbrenner bill there are a variety of provisions. There has 
been argument whether it should be a felony or a misdemeanor or 
a civil offense. But the whole idea that we would pass, let's 
say that Mr. Sensenbrenner gets his way and it is a 
misdemeanor.
    The concept that misdemeanors don't go to jail is simply 
false. The jail time is a year. It takes the same prosecutor, 
the same defense, the same courthouse. And that we would sit 
here as legislators and say, well, we included that in the 
bill, but we are not going to enforce the law.
    Why would we sucker the American people in that way once 
again? And tell people, really lie to people in America, that 
we are tough on the border, but we are not going to spend any 
money for border patrol agents. We are tough. We ought to 
enforce it, but we are only going to bring enforcement actions 
against three companies in the United States, and we are going 
to put these provisions in the bill, but we are not going to 
actually utilize them. And by the way, we are not going to 
deport anybody either.
    This is just a bunch of gas, and I think it is an insult to 
the American people.
    Mr. Hostettler. The gentlelady's time has expired.
    The chair recognizes the gentlelady from California, Ms. 
Waters, for questions.
    Ms. Waters. Thank you very much, Mr. Chairman and Members.
    I am still worried about the family. I agree that there 
should be tough border control. If that stops illegal 
immigrants from coming across the border, that is fine by me. I 
think we should have a good immigration law, but I want to know 
what happens.
    I think the Senate bill basically talks about if you have 
been here less than 2 years, you are in violation and you would 
be subject to, I suppose, deportation, whatever.
    Let me ask Mr. Camarota, do you agree with that?
    Mr. Camarota. Did you want to ask Mr. Edwards?
    Ms. Waters. Mr. Edwards, do you agree with that part of it, 
that if you are here less than 2 years, you are subject to 
deportation? You have no benefits?
    Mr. Edwards. I agree.
    Ms. Waters. So you could be out of here.
    Mr. Edwards. I agree that the Senate bill has a provision 
that leaves that category of illegal aliens subject to 
deportation.
    Ms. Waters. Okay, then if you are here between 2 and 5 
years, then you could be a part of I guess what would be 
considered a guest worker program where you would have to do 
certain things to be eligible to be a guest worker. Do you 
agree with that part of it?
    Mr. Edwards. I don't agree with any of the Senate, any of 
those amnesty provisions of the Senate bill, but I agree that 
that is the way that it deals with it. It sets up a second 
category of 2-to 5-year illegal residency and they get a 
temporary visa.
    Ms. Waters. But you disagree with that part of it?
    Mr. Edwards. Yes, ma'am. It repeats the same mistakes as 
IRCA because of----
    Ms. Waters. Okay. Mr. Sensenbrenner's bill would make 
felons out of, I guess, he does not have the divisions of, you 
know, 2 years or less, 2-to 5-years, and then a pact to 
immigrate. What would you do with all of the so-called 11 
million to 13 million immigrants who are here illegally and 
there would be no consideration for how they could get legal? 
How would you handle them as felons? Exactly what would you do 
with them?
    Mr. Edwards. What the House bill would do is it would, as I 
have said, reverse the incentives so that you diminish the 
incentives to come illegally.
    Ms. Waters. Oh, we have shut down the border. We have shut 
that down. Now, they have everything that you want. They have 
gates, wires, walls, everything. No more coming in. You have 11 
million to 13 million here.
    Mr. Edwards. I will believe it when I see it, kind of like 
Eliza Doolittle, don't tell me, but show me.
    Ms. Waters. What would you do with them?
    Mr. Edwards. I would say the strategy of attrition that the 
House bill has, and that is to make it more difficult to reside 
here unlawfully. You cannot find a job, or if you do, then you 
and the employer are held accountable under the law, hence they 
leave on their own.
    Ms. Waters. What you are saying is, excuse me, reclaiming 
my time, what you are saying is we would have a provision in 
law where you are now a felon. But this felon can't get a job; 
this felon is not deported. He is not deported; they just kind 
of sit here and do what? What is it you want them to do?
    Mr. Edwards. You are not a felon until a jury convicts you. 
The same would be with anything that is currently in the law. 
The INA provides a number of provisions such as second or third 
or fourth unlawful entry at the border, or technically they 
could be prosecuted for felonies. Are they many times? No. So 
it is just a tool that would reside under prosecutorial 
discretion.
    Ms. Waters. Okay, reclaiming my time. So we have 11 million 
to 13 million folks who could be felons. And if they violate 
traffic laws, whatever, and they are detected, they are taken 
to jail and they are tried. And then what happens?
    Mr. Edwards. Well, you could try them in the criminal court 
or you could simply put them into immigration proceedings, 
which is a civil arena. And therefore you could remove them; 
although they are liable for the felony, they aren't put into 
those criminal proceedings. You remove them from the country.
    Ms. Waters. I guess I am missing something about going into 
immigration proceedings in the Sensenbrenner bill. What is it 
you know about the bill that I don't know?
    Mr. Edwards. I am sure you know it better than I.
    Ms. Waters. I think so, but I want you to tell me why you 
think that these immigrants who are now felons, who have been 
picked up, who could be deported or put in prison, why you 
think there is something else that is in that bill in the way 
of immigration proceedings that would not cause them to have to 
follow the law as it is determined in the bill itself.
    Mr. Hostettler. The gentlelady's time has expired.
    Chairman Sensenbrenner's bill, for the record, does not 
change current law. Those individuals in the example that you 
are using are already subject to deportation, and the law and 
the Sensenbrenner bill does not change current law in that 
aspect.
    I want to thank very much the panel of witnesses for your 
testimony here today. You have made a tremendous contribution 
to the record.
    Ms. Jackson Lee. Before you close, let me ask unanimous 
consent to submit into the record the study, Immigrants Pay Tax 
Share, done by the Urban Institute, with recommendations as to 
what to do with the undocumented, Monday, June 5, 2006.
    [The article follows in the Appendix]
    Ms. Jackson Lee. Let me restate into the record this 
statement of Mr. Reyes: In total, Congress has 800 border 
patrol agents and 5,000 detention beds short of what was 
promised in the 9/11 Act. If the September 11, 2001 terrorist 
attacks did not convince the Administration and congressional 
leaders that border security and immigration must be a 
priority, what will?
    Republicans were in office before 2001 and are now in 
leadership after 2001. Mr. Chairman, I hope that we can finally 
get action on the conference bill.
    Mr. Hostettler. Without objection. All Members will have 5 
legislative days----
    Mr. Gohmert. I am sorry. Without objection, if I might 
clarify a point.
    With regard to the problems I was having with the 
immigration service, their failure to do their job, and their 
efforts to prevent people who were trying to do the right thing 
to do their job. We had a Democratic president, a Democratic 
House and a Democratic Senate. So I don't know if the other 
Members' comments about the ``party of gas'' applied at that 
time, but I did want to clarify there was gas back in an all-
Democratic era as well.
    Mr. Hostettler. I thank the gentleman.
    All Members will have 5 legislative days to make additions 
to the record.
    The business before the Subcommittee being complete, 
without objection, we are adjourned.
    [Whereupon, at 12:51 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


 Prepared Statement of the Honorable Edward M. Kennedy, Senior United 
         States Senator from the Commonwealth of Massachusetts

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


Article entitled ``Senate Bill Creates Terrorist Loophole'' by Kris W. 
     Kobach, submitted by Phyllis Schlafly, President, Eagle Forum

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


Article entitled ``Study: Immigrants Pay Tax Share''by Karin Brulliard, 
  submitted by the Honorable Sheila Jackson Lee, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Immigration, Border Security, and Claims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Letter from the Essential Worker Immigration Coalition et al., 
  submitted by the Honorable Sheila Jackson Lee, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Immigration, Border Security, and Claims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
